<html>
<title> - THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




              THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 1999

                               __________

                           Serial No. 106-137

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-224                     WASHINGTON : 2000


                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                Gill Macklin, Professional Staff Member
                   Steve Dillingham, Special Counsel
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 14, 1999.................................     1
Statement of:
    Cooper, Tinker, Families Against Drugs, Orlando, FL; Shona 
      Seifert, Ogilvy & Mather, New York City, NY; and Harry 
      Frazier, senior vice president, Fleishman-Hillard, Inc., 
      Washington, DC.............................................    98
    Johnston, Lloyd, program director and university 
      distinguished research scientist, Institute for Social 
      Research, University of Michigan; and S. Shyam Sundar, 
      director media effects research laboratory, College of 
      Communications, Pennsylvania State University..............   131
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy........................................    19
Letters, statements, et cetera, submitted for the record by:
    Cooper, Tinker, Families Against Drugs, Orlando, FL, prepared 
      statement of...............................................   101
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    15
    Frazier, Harry, senior vice president, Fleishman-Hillard, 
      Inc., Washington, DC:
        Followup questions and responses.........................   122
        Prepared statement of....................................   109
    Johnston, Lloyd, program director and university 
      distinguished research scientist, Institute for Social 
      Research, University of Michigan, prepared statement of....   134
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy:
        Followup questions and responses.........................    79
        Prepared statement of....................................    25
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     8
    Seifert, Shona, Ogilvy & Mather, New York City, NY, prepared 
      statement of...............................................   105
    Sundar, S. Shyam, director media effects research laboratory, 
      College of Communications, Pennsylvania State University, 
      prepared statement of......................................   155


 
              THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              ----------                              


                       THURSDAY, OCTOBER 14, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Cummings, Souder, Turner, 
Terney, Barr, Ros-Lehtinen, Portman, Hutchinson, Ose, and 
Kucinich.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Steve Dillingham, special counsel; Gill Macklin, Mason 
Alinger, and Carson Nightwine, professional staff members; 
Charley Diaz, congressional fellow; Lisa Wandler, clerk; Cherri 
Branson, minority counsel; and Jean Gosa, minority staff 
assistant.
    Mr. Mica. We don't have a gavel this morning, and we don't 
have all of our members, but I would like to go ahead and start 
the hearing this morning and call this meeting of the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order.
    I would like to get started. We are expecting our ranking 
member and will be joined by other Members, but we do have, I 
believe, three panels today, and we want to keep the 
proceedings moving.
    I will start with an opening statement, and hopefully we 
will be joined in a few minutes, as I said, by our ranking 
member, and we can move the hearing along.
    Today's topic is the national youth anti-drug media 
campaign, and a review of what has been taking place with that 
campaign.
    Today, our subcommittee is conducting this oversight 
hearing as the first in a series of hearings to examine that 
national youth anti-media drug campaign.
    It is vital that this program be administered both 
effectively and efficiently, and also in keeping with the 
intent of Congress.
    I do want to inject at this point a little bit of my 
concern, and I will express it to the Director of ONDCP, right 
at the outset that we have had some difficulty in obtaining 
information to conduct this hearing and to perform our 
Constitutional duties of oversight and our particular 
responsibilities because we have been unable to obtain some 
information from ONDCP.
    Our staff has compiled a list of documents, including 
subcontractors' monthly activity reports, evaluation reports, 
and project status reports which have been requested but not 
submitted by ONDCP to date.
    Now, we had first requested information, I believe, back in 
March. We have delayed conducting this hearing on several 
occasions. We wanted to give the ONDCP an opportunity to first 
complete a full year of activity in the program, and, second, 
to also compile and provide us with that information.
    So today's hearing will be somewhat preliminary in that we 
have not had an opportunity to review all of the documents that 
we requested, nor have we received those documents.
    It is my hope that we can work cooperatively with ONDCP to 
both secure those documents, records, and information, and have 
them provided to the subcommittee so that we can conduct our 
proper oversight role.
    In addition to our oversight responsibilities for the 
Office of National Drug Control Policy, our investigative venue 
extends to a host of departments and agencies that partner with 
ONDCP to fight illicit drug use.
    ONDCP is responsible for the policy guidance that is 
incorporated into our national drug control strategy and for 
assisting in the coordination of Federal, State, and local 
anti-drug efforts.
    Early in this administration, drug issues were largely 
neglected, and in an effort to reduce White House staff, the 
Office of National Drug Control Policy staff was dramatically 
slashed, down from more than 100 staff positions to only a 
couple of dozen.
    Congress has acted to reinvigorate the national anti-drug 
effort by putting pressure on the White House to adequately 
staff the office.
    I might say, too, under the leadership of our new drug czar 
and Director, General McCaffrey, that we have dramatically 
brought up staffing. With a staff today of nearly 150, ONDCP is 
many times the size it was after the slash and burn activities 
back in the early part of this administration.
    Congress continues to increase the Nation's anti-drug 
budget, which now exceeds $17.8 billion. Just since 1996, our 
anti-drug budget has grown by $4.3 billion. That is just since 
1996, a $4.3 billion increase. Most of this increase, 55 
percent, has funded more prevention and education programs.
    ONDCP's budget for fiscal year 1999 was $350 million, with 
about $200 million being spent on the high-intensity drug 
traffic areas [HIDTAs], and $185 million, more than 40 percent 
of the total budget, on the media ad campaign.
    ONDCP's performance of its responsibility to promote anti-
drug messages nationwide is the focus of today's hearing. ONDCP 
refers to the effort and they have given it the title, ``The 
National Youth Anti-Drug Media Campaign,'' or some refer to it 
as ``the campaign.``
    The campaign is no small program. At nearly $1 billion over 
5 years, this is one of the largest advertising campaigns ever 
launched. One advertising executive recently noted that there 
are only a handful of ad campaigns in excess of $1 million a 
year, and cited New York, where $30 to $40-million accounts are 
fought for, as he said, tooth and nail.
    In fiscal year 1998, Congress appropriated $195 million to 
ONDCP. I might add that that was $20 million over the 
President's request. That $195 million was to support this 
national anti-drug media campaign.
    In fiscal year 1999, $185 million was appropriated, and 
another $185 million will be provided for in fiscal year 2000.
    The predecessor to the campaign was developed and run from 
1987 to 1997 free of charge to the taxpayers by the Partnership 
for Drug-Free America.
    As we are here today, experience has shown that when a 
strong anti-drug message is commercially nationally 
communicated and media time is maximized, drug abuse begins to 
drop.
    Before 1998, the partnership, the private partnership, 
donated air time from the big three television networks to 
disseminate anti-drug messages nationwide. Creative talent was 
donated to develop and produce anti-drug ads. In 1991, the 
estimated value of these donations exceeded $350 million 
annually.
    Increased competition from the industry deregulation in 
1991 resulted in the beginning of a decline in donated media 
time. As a result, the partnership and others worked to 
convince Congress to appropriate Federal dollars to continue 
media buys so that the anti-drug message might continue.
    During this time, I proposed to ONDCP and the FCC, Federal 
Communications Commission, that the public had a right, as 
owners of the public airwaves, to require a minimum level of 
public service announcements on this issue. However, a 
compromise was reached that Congress would fund media buys that 
would be matched by donated broadcast time and space.
    I should note that in the early 1980's First Lady Nancy 
Reagan contributed immensely to an anti-drug awareness campaign 
through her ``just say no'' campaign efforts. That simple yet 
powerful message reached the entire Nation without cost to the 
taxpayers.
    In the absence of such a clear message today and 
recognizing the need for a strong anti-drug message, Congress 
agreed to commit substantial tax dollars to replace previously 
donated media time.
    Again, this decision was made as a result of a proven media 
track record and congressional appreciation for the urgency to 
respond to a growing drug crisis.
    As shown in the 1999 national drug control strategy on page 
12, based on a national household survey data from 1985 to 
1992, use of illicit drugs declined in that period by 50 
percent, from about 12 percent to about 6 percent of 
households. However, since this administration took office in 
1992, the declining trend in illicit drug use reversed 
direction.
    Throughout the 1990's, reports of the National Institute of 
Drug Abuse [NIDA], indicate that, overall, illicit drug use 
rose at an alarming rate among our young people during the 
beginning of this administration. Now skyrocketing heroin use 
and addiction are threatening our young people more than ever 
before.
    From 1993 to 1997, the number of Americans reporting heroin 
use in the past month rose from 68,000 to 325,000. That is more 
than a quadrupling.
    In 1998, over half of our Nation's 12th graders reported 
trying an illicit drug, according to the University of 
Michigan's report, which is entitled, ``Monitoring the Future: 
A Study.'' This has taken place and, in fact, has occurred 
since this administration took office in 1992. The fact is that 
lifetime marijuana use has nearly doubled among 8th and 12th 
graders, and gone up over 50 percent among 12th graders.
    Since this administration took office, lifetime crack 
cocaine use has more than doubled among 8th and 10th graders 
and has gone up nearly 70 percent among 12th graders.
    Since this administration took office, lifetime use of 
cocaine has more than doubled among 10th graders, and gone up 
nearly 60 percent among 8th graders, and over 50 percent among 
12th graders.
    The need for action is abundantly clear.
    In appropriating moneys for the media campaign, conditions 
were placed on funding uses. The Office of Drug Control Policy 
was instructed not to supplant community-based coalitions or 
pro bono public service time and not to use funds for 
politically partisan purposes or to feature elected or 
administration officials.
    ONDCP was asked to plan for securing private contributions 
and having qualifications of fund recipients, and also to have 
a system to measure outcomes.
    As a consequence of funding this media effort, this 
subcommittee is responsible for ensuring that the campaign is 
both effective and efficient and that taxpayer dollars are 
maximized and not wasted.
    We cannot afford wasteful or inefficient government 
practices in saving our youth from drugs.
    Today, as this subcommittee learns more about ONDCP's 
administration of the media campaign, we must examine both the 
progress that is being made and the areas where improvements 
are needed in this program.
    Based upon available information, there are some signs of 
some significant progress, and there are also some signs that 
raise doubts as to the media campaigns effectiveness and also 
its efficiency.
    Again, I have requested important contract information from 
ONDCP that our investigative staff has not yet received. This 
is not a national security issue and neither is the information 
that they have something that deals with our national security. 
I will withhold final judgment regarding this initiative for 
now. Still, based upon information that I have, I have numerous 
concerns regarding the campaign's effectiveness and efficiency, 
and I think some of the information we have already received 
also makes me question some of the expenditures. But, again, I 
am going to withhold judgment until we get all the facts and 
information and document in hand.
    I do consider it a positive sign that ONDCP budget figures 
indicate that significant media buys have been made, and that 
we have had very significant donated match services received. 
Still, I am concerned about paying for production costs that 
were donated in the past. I don't have a complete accounting of 
all these expenditures at this point, but I have a number of 
other concerns.
    One expectation that I had about this initiative--an 
expectation that I believe was shared by others in Congress--
was that the funds were to go to media buys. That was the need 
articulated to me and to other Members of Congress. Therefore, 
I envisioned a media effort, simple in design and easy to 
administer. After all, ONDCP is a policy office and part of the 
White House.
    Congress--wisely, I think--generally does not have the 
White House administer government programs. The departments and 
agencies generally administer sizable programs, as they have 
inspector generals, established procedures and safeguards, and 
more experience and resources.
    Accordingly, I envisioned, perhaps, a single competitive 
contract award for buying media time with donated matches, and 
a concise plan for possible private contributions. After all, a 
proven and tested media approach was in place, based on studies 
and experience.
    Instead, what we have seen so far is a very tangled web of 
contracts that appears overly complicated, expensive, somewhat 
bureaucratic, and, unfortunately, untested. And I might add, it 
is very difficult for our investigative subcommittee staff at 
this point to sort through these expenditures and, again, this 
tangle of contracts.
    The media campaign has now been divided into dozens of 
contracts, subcontracts, interagency agreements, and transfers 
for a wide assortment of purposes. Why was a media buy 
converted into a very complicated and expensive programmatic 
activity? Was this approach necessary and the most effective 
and cost-efficient course to take? I am not quite certain.
    I question the need for a $10 million reimbursable work 
agreement with a contractor to provide contract and 
administrative support services. Why is this needed?
    Why was $750,000 sent to the Substance Abuse and Mental 
Health Services Administration [SAMHSA], to develop innovative 
and effective approaches to the prevention of substance abuse? 
Doesn't SAMHSA already do this? If not, why not?
    ONDCP is responsible for guiding and leveraging these 
agencies to contribute to anti-drug efforts. I know that the 
National Institute for Drug Abuse [NIDA] sends instructional 
packages to every middle school in the Nation. I have one with 
me today, and I assure you that I have plans for learning more 
about what SAMHSA is or is not doing.
    I suggest guidance and coordination with our Education 
Department, which has a half-billion-dollar-per-year safe and 
drug-free school program.
    Are we duplicating that effort? It, too, is designed to 
fight drugs in schools. Our oversight of that program reveals a 
strong need for quality guidance.
    In particular, I question the award of almost $10 million 
per year over a 5-year period totaling more than $48 million to 
a public relations firm, apparently with little Federal 
contract experience, as part of a non-advertising campaign.
    Wasn't the whole purpose of this campaign to advertise more 
extensively?
    I realize that ONDCP sought and received the advice of 
others in planning these activities on how funds might be 
divvied up. Still, Congress is responsible to all the taxpayers 
and citizens for ensuring that these funds have been used 
effectively and efficiently and in accordance with 
congressional intent.
    Congress is also responsible for ensuring that all agencies 
contribute their fair share and do not skim moneys from this 
media effort. It appears to me that many of the non-advertising 
campaign activity should be conducted by other well-funded 
Federal agencies.
    I also am concerned about recent contract reimbursement 
issues resulting from non-reimbursements and about delays in 
deliverables such as non-advertising campaign evaluation due 
last month. It is my understanding that one of these 
evaluations was due September 4th. We were given conflicting 
information as to whether ONDCP had that report, and we 
certainly have not been able to get a copy of that report. That 
is troubling to me.
    A more complete discussion of the funding and contract 
concerns may have to wait until later hearings, again because 
we don't have the information from ONDCP or access to records.
    I will be requesting additional information from ONDCP, but 
available information raises some very serious questions.
    Was it necessary to spend $1 million for a 50-page 
communications plan? Are the expensive evaluations truly 
needed, including a $4.5 million evaluation of cities, that 
reaffirm the obvious--that the anti-drug message can increase 
awareness and perception of risk? That was a $4.5 million 
expenditure. What do we expect from the projected 5-year, $35 
million national evaluation?
    I agree that we need to evaluate the effectiveness of our 
efforts. That is very important. However, we already have 
federally sponsored research of the monitoring of the future 
project. That project has been monitoring attitudes and drug 
abuse trends for decades. In fact, its surveys are being used 
in this effort.
    Again, I support reasonable evaluation research and can 
understand dedicating funds for this purpose and that they are, 
in fact, needed.
    In fiscal year 1999, for example, $100,000 of the ONDCP was 
earmarked for evaluating the Drug Free Communities Act. It 
appears to me that spending and media evaluations may be 
running amuck.
    If you wave large amounts of money in front of contractors 
and consultants and researchers, I can assure you that they 
will come and they will be attracted to these opportunities.
    Finally, I am skeptical of the effective and efficiency of 
Internet celebrity chats. My staff has identified public 
figures and celebrities who are willing to share their anti-
drug messages to much larger audiences without cost to 
taxpayers.
    I would encourage ONDCP to identify celebrities who will 
volunteer anti-drug messages through donated media productions.
    There are also questions raised about the credibility of 
celebrities who are being paid for these messages, particularly 
in this setting.
    In sum, I support ONDCP's media buys and donated time and 
talents, efforts to date. We have seen positive impacts of 
effective media messages and donated time and talents in the 
past.
    Past successes clearly motivated Congress to fund this 
media buy initiative, but I am very concerned about the 
questionable expenses and uses of tax dollars that could be 
spent directly for media buys and their value more than doubled 
by donated matches.
    I do not consider it appropriate for ONDCP to become a 
program office. That is why the ``P'' in ONDCP stands for 
``policy,'' not for ``programs.'' ONDCP, as a component of the 
White House, is not well-situated, suited, or equipped to 
manage complicated programmatic activities.
    Most Federal programmatic activities require a multitude of 
administrative duties and bureaucratic tasks, including 
developing programs and projects, devising and implementing 
plans, monitoring deliverables, conducting cost-effective 
evaluations, and ensuring fiscal accountability and integrity.
    In my opinion, Congress never intended for ONDCP to 
undertake major program activities or to fund a multitude of 
contracts, subcontracts, and agreements. If the media campaign 
truly requires a complicated approach and a multitude of 
contracts and financial agreements for non-media buys--
something I am not aware of or convinced of--then Congress 
could specify such an approach and assign it to an agency with 
media experience. After all, nearly $17 billion in anti-drug 
activities are now managed outside of ONDCP.
    As I see it, Congress does not intend to create a 
bureaucratic monster to fund a study, and also plan and 
contract, coordinate, evaluate, and chat the anti-drug message 
to death.
    I feel that a truly integrated campaign should emphasize 
partnering rather than paying other Federal agencies, 
nonprofits, corporate sponsors, and interested public figures 
and celebrities.
    Congress and ONDCP need to work together on many fronts 
involving supply and demand. We agree that much more 
coordination and resources are needed to respond to the 
Colombian situation and to our southwest border crisis. I am 
convinced that many of these issues could have been avoided had 
there been closer coordination by ONDCP with Congress and this 
subcommittee, both with the majority and the minority.
    I look forward to closer communications and coordinations 
in the future.
    I hope we find common ground today in recognizing that the 
protection of our Nation's youth from drugs is our paramount 
concern, and that decisive and effective action is needed.
    I am interested in hearing from our witnesses. I apologize 
for the length of this opening statement, but we have spent a 
considerable amount of time. This is the largest program that 
we have ever undertaken. It was undertaken, I think, with good 
will on both sides, and we want it effective.
    We are spending more money, as I said in my opening 
statement, than we probably ever had on any media campaign in 
the history of the Congress, and we want to look on it with 
pride and also with success in that it is effective in 
addressing this terrible problem that we face.
    With that long opening statement, I am pleased now to hear 
from Mr. Cummings.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.001
    
    [GRAPHIC] [TIFF OMITTED] T6224.002
    
    [GRAPHIC] [TIFF OMITTED] T6224.003
    
    [GRAPHIC] [TIFF OMITTED] T6224.004
    
    [GRAPHIC] [TIFF OMITTED] T6224.005
    
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you very much for holding this hearing.
    As I sat there and I listened to you, I was saying to 
myself at one time, 3\1/2\ or so years ago I sat here as a new 
member of this committee and I didn't have an institutional 
history, but thank God this morning I do, and I remember some 
of the things that have happened.
    As I listened to you--I will be very frank--I got kind of 
concerned because a lot of the things that you just criticized 
the agency for are the very things that this Congress told them 
to do. And that I find very interesting.
    Like, for example, there was some talk about the anti-drug 
media campaign that was, prior to this, operated effectively 
using donated television time. But back in 1994, a 1994 
hearing, the majority decried this dependency on donated time, 
and in 1998 the majority pressed for the creation of a paid 
media campaign.
    Then, another thing that concerns me is this whole issue of 
evaluation. And General McCaffrey knows that he and I don't 
agree on everything, but I do believe in fairness. I am sure he 
will address these issues.
    Back in October 1998 the Congress directed. We told them to 
do it. It wasn't like something that just fell out of the air. 
We said, ``Do it.'' We directed ONDCP to implement a 
comprehensive communications strategy. Congress instructed 
ONDCP to purchase media time and space. But listen to what else 
we told them to do. He didn't do this, we told them to do it: 
to test and evaluate advertising; test and evaluate the entire 
campaign; forge partnerships with community, civic, 
professional, and government organizations; form collaborations 
with the entertainment industry. We didn't tell them who to go 
to in the industry; we told them to do it. Engage in 
interactive media activities--we told them to do it.
    And now, a few years later, we turn around and we say, ``We 
don't like the way you did it. You spent too much money here.''
    I don't know whether it is a question of micro-managing or 
not. I think that General McCaffrey will address these issues 
very effectively.
    But I must tell you, Mr. Chairman--and I do appreciate and 
I know that your heart is in the right place, but one of the 
things that concerned me about the entire statement that you 
just made--and I think that you and many others have been very 
concerned about whether the rates of drug use have gone up or 
down, but it is interesting to note that not one syllable was 
mentioned about the fact that teenage drug use in the African 
American community is going up, not one syllable of that long 
statement.
    General McCaffrey knows that this is a great concern of 
mine, and he has agreed to come to my District to sit down with 
some young African American children to address this issue so 
that they can let him know why, perhaps, this media campaign 
has not affected them the way it has affected others.
    And the other thing that I was very impressed with--and, 
you know, I know we sort of glance over sometimes the 
achievements of folks when we are trying to make sure we make 
our point. But the fact is that General McCaffrey has done a 
good job. I mean, there is a 13 percent drop in the number of 
teens using drugs.
    And, as much as I want to give credit to the ``just say 
no'' campaign--and I will tell you, I don't know how effective 
it was. I am going to be frank. I just don't know, somebody 
just saying no. But I applaud every single person who stands up 
and tries to do something about drug use. But I don't know. I 
don't have a barometer that says, ``Just say no says something 
to the children that I represent.'' I don't know whether it 
affected them or not.
    But one thing I do know is that when you give children a 
good education and when you do the preventive things that the 
general is trying to do, I think you stand a better chance of 
reducing drug use and preventing drug use.
    And so I am excited about this hearing. I am looking 
forward to hearing the response.
    I think we have to be very careful. I have seen us spend, 
as a new Member of this Congress, billions of dollars, and it 
doesn't seem like there is very much oversight at all in some 
areas.
    On the other hand, we have an area where there seems to 
be--and, general, you can address this--there seems to have 
been some effectiveness with the spending of these dollars, but 
we sit here and say, ``Well, maybe you aren't doing it right. 
Maybe you ought to tweak it here, tweak it there, tweak it 
everywhere.'' But the fact is that there has been progress.
    Last, but not least, as a member of this committee I have, 
over and over again, said this, and I mean it. While I may 
disagree with the general and his staff on some issues, there 
are very few human beings that I have more respect for than 
this agency. I think they have one of the toughest jobs in 
America. And it is so easy to sit up here and say things should 
be different, but when you are in the streets, when you are so 
often sadly dealing with parents, sometimes, who don't take the 
responsibility that they should take, when you are dealing with 
substances which are often almost dropped in communities, and 
the things that I see, where wholesale sale of drugs, where 
drugs are marketed as if you are marketing some great product 
for headaches or something, it is a tremendous thing that we 
have to address.
    I mean, when we think about all the drugs that folks are 
trying to float into this country, fly into it, send by train 
and cars, it is a tremendous responsibility.
    And I just wanted to take a moment, General, to thank you 
for what you do. I could probably say this at the end of the 
hearing, but I thank you for what you are doing. It is a very, 
very difficult job, and I applaud you and I applaud your staff.
    I do have my concerns. I want to thank you for agreeing to 
try to address them as best you can. And I look forward to your 
testimony and the testimony of the other witnesses.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T6224.006

    Mr. Mica. I thank the ranking member, or acting ranking 
member today, and recognize the vice chairman of our 
subcommittee, Mr. Barr, the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman. I appreciate your 
calling this hearing. It is always an honor to have General 
McCaffrey with us, and I look forward to hearing from him and 
the other panelists that you have in the other two panels.
    We, of course, share much in common, those of us up here, 
with you, General McCaffrey--certainly a commitment to our 
young people, our abhorrence of mind-altering drugs, and our 
commitment to continue to wage an unrelenting battle against 
their usage.
    We also share a common understanding that both of us are 
stewards of the public's money, and, while some on the other 
side may not view exercising that stewardship in oversight is 
important, I know that you know that it is and the chairman and 
we do, also, so I appreciate your being up here to discuss with 
us some of the specifics about how the moneys are being spent, 
and I have no prejudgments at all on it. I think it is an 
important part of our oversight to periodically look and hear 
from you as one of the prime administrators of these anti-drug 
moneys to see that they are being spent most wisely.
    There are a lot of questions that we have, and you are 
always very forthcoming, except when it relates to some 
political issues that are difficult for you to deal with, and I 
understand that, and I will get into another one of those, 
which is the D.C. legalization initiative again today, and 
hopefully you will be able to share with us some thoughts on 
that, since we have progressed down that road a little bit 
since you appeared last here before the Congress.
    But I do appreciate our different witnesses today and think 
that this is a very important hearing, Mr. Chairman. I 
appreciate your convening this.
    Thank you.
    Mr. Mica. I thank the gentleman and recognize now the 
gentleman from Texas, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Welcome, General McCaffrey. We appreciate all of your good 
work and efforts over the years to combat drug abuse.
    I come here today, Mr. Chairman, with no preconceived 
notions about our efforts. I am very supportive of the fact 
that we at the Federal level are committing significant dollars 
in trying to combat drug abuse and to the advertising effort 
that is being made.
    Those of us who hold political office all have different 
opinions about the effectiveness of advertising because we have 
to engage in purchasing advertising every 2 years, and we all 
struggle to be sure the advertising is out there where people 
can see it and that we don't spend an inordinate amount of our 
funds on consultants and other expenses that never actually get 
out there where the rubber meets the road, so it is an 
interesting subject for us to undertake.
    I am certainly supportive of the continued efforts to try 
to involve the private sector and to secure private donated 
funds and donated media. It is a very important part of the 
effort, and I want to be sure that we are continuing to 
encourage it.
    But, in the final analysis, I think the commitment that we 
are making, both publicly and privately, to communicating an 
anti-drug message to young people is a very important effort 
and should be continued, should be subject to review and 
oversight by this committee, and I commend you, Mr. Chairman, 
for holding the hearing for this purpose.
    Mr. Mica. I thank the gentleman and now recognize the 
gentlelady from Florida, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I 
congratulate you for holding this hearing, because I think all 
of us in Congress, and especially this committee and this 
subcommittee, have an important oversight task, and that is to 
carefully look at and monitor how our scarce taxpayer dollars 
are being spent, and I think this hearing today should help us 
to do that, but I am going to say some positive statements 
about this media campaign. I know a little bit about it because 
this national campaign kicked off in my Congressional District. 
I am not going to speak about what they did in other areas, but 
I would like to just briefly talk about the great efforts that 
this campaign did in my area, where we have an overwhelming 
number of Hispanic children in our public and private school 
systems.
    This campaign reached out to the Hispanic community, 
especially. They got very good support from our Spanish-
language press. They were all out there saying what a positive 
message it is to have kids talking to other kids about why it 
is wrong to take drugs.
    Not only is that an encouraging message to me, as a Member 
of Congress, but as a mother of a 13-year-old and a 12-year-
old, I know how pervasive this message of, ``It is OK to take 
drugs'' is to young people. They see it all the time in 
television, in MTV, on the Internet, and they actually pay 
money to hear the message that drugs are OK, because if you pay 
attention to the kind of movies that are out there--and I do--
when was the last time that you had the hero or the heroine of 
that movie be someone who is doing well in school, that 
academic achievements are applauded and that drugs are 
terrible?
    All around our children today is this culture in which 
drugs are OK. What a shame that we actually have to pay to get 
a message out there saying that drugs are not OK.
    I think that we, of course, must be careful with our tax 
dollars. Is this campaign the best use of our tax dollars? Is 
the message getting through? Are we doing enough? Are we 
reaching out to the partnership groups that are already out 
there? Is the drug czar doing enough to work with those anti-
drug groups and get the free media exposure? Is Madison Avenue 
doing its part to get those ads out for free?
    We want to make sure that we exploit whatever free media is 
out there, but, barring that, I think we need to reach out to 
the young people, we need to get the message that drugs are not 
OK.
    I know from the kind of campaign that was done in Miami 
that it is a message that needs to be heard. I want my children 
to hear it. Too bad we have to pay to get them to hear it, but 
if that is the way it has got to be done, then that is what we 
must do. But let us monitor, let us make sure that it is being 
correctly used.
    I know General McCaffrey is a semi-resident of south 
Florida, he goes down there so much. But I think every time 
someone goes out and says drugs are not OK, that is a positive 
message. I want Amanda and Patricia to hear that. If it is in 
Spanish, all the better. They have got to practice their 
Spanish.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady and recognize the 
gentleman from California, Mr. Ose, for an opening statement.
    Mr. Ose. Thank you, Mr. Chairman.
    As always, I welcome the opportunity to participate in your 
hearings. I regret our good friend, Mr. Cummings, had to 
depart. I, too, share a specific interest in how minority 
groups are being affected, and I find it ironic, his testimony 
that use among minorities is growing, and his objection to our 
oversight over the matter which we are participating in an 
oversight hearing.
    I look forward to the General's feedback, because I do 
think that if use is growing in a particular sector, such as 
some of our minority groups, we do need to exercise oversight.
    With that, as always, I learn something every time I have 
the opportunity to visit with the general. I thank you for 
including me.
    Mr. Mica. Thank you, Mr. Ose.
    I am pleased now to recognize--he is not a member of our 
panel, but he is one of the three co-chairs appointed by the 
Speaker as the chair of our anti-drug effort in the House of 
Representatives, Mr. Portman.
    Mr. Portman of Ohio has really been the leader in working 
on the demand side of the equation, and a close ally to this 
subcommittee and its efforts.
    You are recognized, sir, if you want to make an opening 
statement.
    Mr. Portman. Thank you, Mr. Chairman. I will be very brief.
    First, I would thank you very much for allowing me to be 
here today, not being a member of the panel, and, second, to 
commend you for holding this oversight hearing. I think it is 
extremely important that we have these hearings so that we can 
have the information out in the public and we can talk honestly 
about some of the issues that sometimes only get addressed 
behind closed doors.
    I am very supportive of the campaign. I think Congress took 
a huge risk in 1996 by entering into this, which was 
unprecedented, setting up what is going to be, over time, the 
single largest campaign of any kind, largest media campaign not 
just in the country but in the world. We did it because we 
believe that the research indicated it was the right thing to 
do.
    I believe that the campaign has made considerable progress. 
I know we will hear from Lloyd Johnston and others on that 
later, as well as General McCaffrey. However, I do think that 
oversight of a program of this magnitude is extremely 
important.
    I see three challenges, Mr. Chairman, among the many before 
us that I would like to mention, if I could.
    First is being sure that we continue to integrate the 
effort of the anti-drug media campaign with what is going on in 
our communities around the country, particularly the community 
coalition movement, which is now about 4,000 community 
coalitions strong, and we hope to double in the next 4 or 5 
years.
    I think we have made some progress in that regard, but I 
think we have considerable more progress to make.
    Second would be working to mobilize and complement the work 
of the private sector. I have spoken with General McCaffrey 
about this. I know he is committed to this. But it is to keep 
the Partnership for Drug-Free America, keep all the other 
private sector entities that are working on this so diligently 
and have been over the last decade with this program, and use 
them, frankly, to maximize the impact of this program, use the 
creative talent on Madison Avenue, use the folks who have, 
again, spent years working on this, and to be sure that we are 
continuing to complement their work with the work that the 
Federal Government is supporting through this program.
    The final one is evaluation, and this is one area where I 
want to particularly compliment ONDCP for taking this 
evaluation--what Mr. Cummings' earlier mentioned--mandated from 
Congress, which I think would have been probably been something 
the general would have done anyway, but taking it seriously.
    I know Lloyd Johnston is going to address that in his 
statement.
    I also know we have a GAO report, Mr. Chairman, I think, 
that you have been involved with coming out in March 2000, 
which I am anticipating eagerly.
    But it is absolutely essential in the prevention area that 
we do a better job of evaluating the progress of taxpayer 
dollars being spent, particularly when it is of this magnitude.
    So again, Mr. Chairman, thank you very much for giving me 
the opportunity to be here today. I look forward to the 
testimony.
    Mr. Mica. I thank the gentleman, and I would now like to 
turn to our first panel, and that consists of the Director of 
the Office of National Drug Control Policy.
    Director McCaffrey has been with us before. If you would 
stand, sir, this is an investigations and oversight committee 
of Congress. Raise your right hand to be sworn.
    [Witness sworn.]
    Mr. Mica. Welcome again to our panel, Director McCaffrey. 
We are anxious to hear about the progress that has been made on 
this anti-drug media campaign. I think we have had about 1 year 
now under our belts. We have tried to allow as much time as 
possible for the program to run its initial course, and now 
have an update provided by you about its progress.
    So you are welcome and recognized, sir.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Thank you, Mr. Chairman, for the chance 
to appear before you and to present some of our own insights, 
respond to your own questions.
    Let me, if I may, with your permission, ask to enter into 
the record the written statement we have pulled together, as 
well as the copies of the charts that I am going to run through 
very quickly.
    Mr. Mica. Without objection, that documentation and those 
reports will be made part of the record.
    General McCaffrey. We have tried to pull together, and 
particularly in our written statement, some very detailed data 
that tries to get at the questions on what are we doing and how 
effectively is it working.
    I say that, and excuse the props, but here are the initial 
evaluations of phase one and phase two, so I think we have 
gotten a very detailed and serious scientifically based 
evaluation of how we are conducting this campaign and to what 
effect.
    Let me also, if I may, take note that this has been a team 
effort, and it is a team effort because here in the room you 
have wisely elected to have several of them testify. We have 
the Partnership for Drug-Free America. Dick Bonnett is down 
here with some of his people. We just had a very effective 
multi-hour session with Jim Burke and the others, one of our 
periodic updates. They are the right arm we have in this whole 
outfit.
    The Ad Council is here, Jody Berkowitz, campaign manager. 
Peggy Collins, their new president, she came in with about 30 
of their people and gave us a spectacular layout on their work, 
which I will talk about more later. But let me, if I may, 
underscore: the most important thing they are going to do is 
connect community coalitions and volunteers to the anti-drug 
effort. Wait until you see the work that they are about to 
start putting on the air. I thank them for their creativity.
    The American Advertising Federation--Wally Snyder is the 
president and is here--do the heavy lifting in 102 local media 
markets. We couldn't get off the ground without their 
leadership on convening and facilitating the media match task 
forces.
    As you know, by law Congress has required me to get at 
least 100 percent match, and that is where mechanically the 
leadership goes on in communities all across America.
    You have elected to have testify one of the most brilliant 
people I have met in the last 4 years, Shona Seifert, who is 
the senior partner and project director of Ogilvy & Mather, our 
prime advertising contractor. I won't speak for her, but let me 
just say that her team has sparks jumping off them. We are very 
pleased with their efforts.
    Fleishman-Hillard, although it only has about 5 percent of 
our money, will be represented by Harry Frazier, who I know 
will testify, and Bev Schwartz, who is our vice president and 
project director. Their rather modest funds arguably at the end 
of the day may turn out to be the biggest lever we apply on 
this whole effort, particularly when it comes to the Internet.
    I am not sure any of us yet appreciate the extent to which 
the adolescents in our country have moved away from television, 
radio, and other forms of communication and are in the Internet 
right now. Fleishman-Hillard has done truly brilliant work 
there.
    Lloyd Johnston is here. He has been a source of wisdom on 
the drug issue since I picked up these responsibilities. 
University of Michigan Survey Research Center--there is no 
substitute for beginning with some facts, and Lloyd Johnston's 
analysis of his own data base has been instrumental.
    A bunch of other folks are here, but let me, if I may, 
underscore Community Anti-Drug Coalitions of America. Sue Thou 
is here, their public policy coordinator. They are 
instrumental. We don't have a national drug problem; we have a 
series of community drug epidemics. That is where we are going 
to get at it.
    There are also many other people here. I would just briefly 
mention that Dr. Linda Wolf Jones, Therapeutic Communities of 
America, reminds us that, although we are talking prevention 
and education, which ought to be about 85 percent of our 
efforts, we still have to be concerned with the 4 million of us 
who are chronically addicted to illegal drugs, and the work of 
her association and others has been instrumental in getting at 
that problem.
    I am going to run through very quickly, just to show you 
sort of the architecture or the structure of this effort 
through a series of slides. You have copies, and I would like 
to end with a 2-minute video.
    The first viewgraph--the strategy. I have to remind all of 
us that what we are doing is not random motion, it is part of 
the national drug strategy. This is an inter-agency process. 
There are 14 Cabinet officers involved in it, and I consult 
with Congress each year to make sure you have an influence over 
this document.
    It is complemented by a communications strategy. This is a 
$2 billion, 5-year effort involving all means of communication. 
We are going to talk about some of these concepts around 
advertising, a 360-degree approach. It won't work if there 
isn't a blueprint on how we are going to address these 
challenges.
    We are talking about the most important thing we are doing, 
which is goal No. 1. How do we shape youth attitudes to reduce 
the abuse of these illegal drugs?
    This is borrowing from Dr. Lloyd Johnston. We have good 
data. Over time, youth attitudes shape how young people behave, 
and we are confident that, when you shape attitudes that 
essentially reject the abuse of illegal drugs from about age 9 
through 18, drug abuse goes down. And when that happens, years 
out, a decade out, chronic addiction goes down, its enormous 
cost.
    That chart is good news, as Congressman Cummings noted--
Donna Shalala and I were really very proud to note a 13 percent 
reduction in youth drug abuse last year.
    I say that. That was not a creature of the media campaign. 
That was only--about half of it was influenced by phase two 
media. So this is old work, old data, but drug abuse is going 
down, and I would argue much of it, Congressman Portman, is due 
to the work of the 40 great civic, patriotic organizations, and 
the more than 33 other NGO's who are associated in communities 
across America with addressing this problem. But it is moving 
in the right direction, thank God.
    Basically, we are just going to take and show you a series 
of bar charts. This isn't the light at the end of the tunnel. 
What this indicates is the slope of the curve has changed. It 
was getting worse from 1990 on, youth attitudes followed by 
youth behavior. Attitudes are getting better and behavior is 
starting to change. But we clearly still have unacceptably high 
rates of drug abuse.
    Here is what you told me to do. And I appreciate 
Congressman Cummings reminding us that we have to take into 
account, there are 154 people in ONDCP. You have given me 
program management of a half billion dollars a year of 
programs. It is not the case that I am just acting as a policy 
spokesman for the administration. I am now organizing and 
running the high-intensity drug trafficking program, the media 
campaign, the Safe and Drug-Free Communities Act, as well as 
other very useful tools.
    I do this, obviously, not by running it myself, but by 
using contractors and by organizing other agencies of 
government. But clearly you have made me accountable for a half 
billion dollars in program activity, a responsibility I take 
quite seriously.
    Here is the guidance you gave me on this one--next chart.
    This is not a simple activity. It is coherent, it can be 
understood, but it requires a lot of study, and you have to 
listen to people who know what they are talking about. 
Fortunately, on these issues, arguably, one of the most 
creative industries in America are those associated with 
advertising and communications. Thankfully, we have had benefit 
of some very serious people who have spent their lives in this 
field.
    I do need to underscore right off the bat that this is a 
good news story, and I will just tell you quite bluntly, we 
know what we are doing and we are proud to explain how it is 
going and how we are organized. But it isn't just a buying a 
Seinfeld 30-second spot. It is more than that. And if you want 
to talk to children and their adult mentors in today's America, 
you can't go to the Super Bowl and buy million-dollar ads. You 
have got to understand more about the issue. You have got to 
see the change in the communications industry, and you do have 
to be sophisticated in your thinking. That is exactly where we 
are. We intend to document how we are doing this and to what 
impact.
    Let me just throw that up as a snapshot. That is 
astonishing. We went out and we tested it in 12 cities, and we 
got some pretty good snapshots--and that is all they were--12 
control cities, 12 test cities. The message got heard. We were 
astonished when we found out it actually started to change 
thinking.
    Phase two, we went out and took a snapshot. Mind you, our 
goal was 90 percent market penetration and four times a week 
contact. Those are the results we got in phase two, and that 
was using PDFA's old material.
    Now we are into phase three. September 6 we started with 
the print media, September 20th with television. It is 
incredible what we have now got on the air.
    If you are an old guy, you are not seeing a lot of it. If 
you are a 14-year-old black kid, last week we probably got to 
you as much as 12 times a week with a market message. This is 
brand new.
    We put $33 million in the minority outreach. We are in 11 
languages. We have a different strategy in 102 different media 
markets. This effort does not look the same in Orlando, FL, as 
it does in Hawaii and Newark and Cleveland, OH. But that is a 
snapshot.
    In phase three, the fully integrated campaign is now up and 
running, and that is the one to watch.
    We argued at the beginning that it is a 2-year impact, the 
elasticity between action and shaping attitudes. But I would 
expect you should see this thing accelerate over time.
    We have got to take into account America's diversity. We 
are different people. If you want to talk to a Hispanic kid in 
the L.A. basin, if you want to talk to somebody in North 
Dakota, you have got to go where they are. You have to take 
into account that the drug threat they see is quite different. 
If it is Boise, ID, it is white kids and it is 
methamphetamines. We have to understand the nature of the drug 
threat, the nature of the ethnic group we are talking to, and 
that is why we are in Tagalog. That is why we are using ads in 
Cantonese, in Vietnamese. That is why we are out in the Pacific 
islands with a very different message than one we crafted for 
the midwest.
    We have got to learn while we are doing this. There is no 
blueprint for what we are up to. But, fortunately, we have 
people like Dr. Alan Leshner, NIDA, and his colleagues. We have 
the behavioral science expert panel. We have paid a decent 
amount of attention to chronicling how these things are 
working. We are focus group testing these ads, and then we are 
watching the feedback, and if they are not working we are going 
to eliminate them, and where they are working we are going to 
try to enhance them. We are going to produce 130 new ads in the 
next 2 years.
    By the way, we are doing that pro bono. The advertising 
companies of America, more than 200 of them, are doing this for 
free. We are covering the actual production cost, only. The 
actors you say that you talk about, the celebrity outreach, 
they are not getting paid for their work. The Actors Guild of 
America has waived their fees. They are not getting paid for 
this work. We are enormously proud of their response in the 
Entertainment Industry Council, as example.
    Public/private partnership--huge, important contribution. I 
won't go through it verbally, but I would be glad to provide 
for the record the enormous generosity of Disney, ABC, America 
Online, computer corporations, never mind the actual broadcast 
media, because public/private partnership--we are not running 
things at 2 a.m. now. These are prime time pro bono matching 
component. We are up to 109 percent matching. It is $175 
million to which we have gotten access, and we are very 
grateful for what they are doing. We have also got more than 
$40 million in other kinds of pro bono response.
    Now, let me, if I may, rap up with four 30-second spots 
that I think you will enjoy and learn from.
    I must admit, Mr. Chairman, if you would permit me, it is 
enormously important to me, personally, that I be viewed as 
responsive to Congress, in general, and to this committee.
    By law, I am a nonpartisan officer of government. I take 
that responsibility very seriously. This is the sixth time I 
have appeared in front of this committee this year. This is the 
fourth time since June.
    I have provided your staff with more than 12,000 documents. 
It cost me over $10,000 to do this. We have brought my agency 
to a halt for the better part of 2 weeks. I take offense at the 
notion that the somewhat ham-fisted raids on ONDCP over the 
last 2 weeks were nonresponsive to your concerns. I will comply 
with the law. That means I have to roll personally and be held 
accountable on Privacy Act and proprietary information, and I 
will not violate that responsibility.
    So I will make myself available personally to you. That may 
have been part of the problem, that I didn't pick up the phone 
and call you to find out what it is you want and help shape 
your staff's thinking so they can come over there and not have 
what I would call unprecedented oversight and interference, 
particularly in the activities of these contractors.
    I do not want payroll information or names released from 
this committee or from my office. I have told my own people 
they will not send anything out of the building until my 
lawyers have reviewed it and I am satisfied that I am in 
compliance with the law.
    But let me just say that I will take this as a challenge to 
make sure that I can earn your trust personally and be viewed 
as responding to what I view as one of my principal 
responsibilities, which is to be accountable to congressional 
oversight.
    Now, finally, I would also tell you that there was almost a 
tone that no good deed will go unpunished by your opening 
statement. This campaign is working. This thing is not screwed 
up. We are proud of what we are accomplishing. I am following 
the directions of Federal law, put together by Congressman 
Colby and his committee.
    So if there is a different viewpoint now I want to listen 
very closely and we can rewrite the law, but rest assured that 
is where we are going.
    On that, note, I again appreciate the chance to talk to 
you. That is a layout of the money. It shows you our focus. And 
this isn't words; those are dollars. That is where the effort 
is going. And I can track those dollars, each one of them, back 
into a piece of paper--more than 100,000 documents which are on 
file at ONDCP.
    We have a contractor who does this work for us, so I know 
where the dollars are going.
    Let's run a couple minutes of that video clip. I think the 
committee will find that instructive.
    Thank you, sir, for the chance to appear here.
    [Video presentation.]
    General McCaffrey. You are seeing, among other things, two 
concepts there--one flighting and the other branding. And I am 
sure most of us are sort of instinctively familiar with this, 
but flighting is powerful. Rather than randomly produced 
events, what we now have is a concept that you can't escape, 
both the children and their adult mentors. The first ones are 
parent effectiveness, for example. The second concept is 
branding.
    The resiliency of the message will be enhanced by this 
approach.
    So, Mr. Chairman, again I thank you for the chance to be 
here, and I look forward to responding to you or your committee 
members' questions.
    Mr. Mica. I thank you, General, for your presentation, and 
also for your work and the campaign.
    [The prepared statement of General McCaffrey follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.007
    
    [GRAPHIC] [TIFF OMITTED] T6224.008
    
    [GRAPHIC] [TIFF OMITTED] T6224.009
    
    [GRAPHIC] [TIFF OMITTED] T6224.010
    
    [GRAPHIC] [TIFF OMITTED] T6224.011
    
    [GRAPHIC] [TIFF OMITTED] T6224.012
    
    [GRAPHIC] [TIFF OMITTED] T6224.013
    
    [GRAPHIC] [TIFF OMITTED] T6224.014
    
    [GRAPHIC] [TIFF OMITTED] T6224.015
    
    [GRAPHIC] [TIFF OMITTED] T6224.016
    
    [GRAPHIC] [TIFF OMITTED] T6224.017
    
    [GRAPHIC] [TIFF OMITTED] T6224.018
    
    [GRAPHIC] [TIFF OMITTED] T6224.019
    
    [GRAPHIC] [TIFF OMITTED] T6224.020
    
    [GRAPHIC] [TIFF OMITTED] T6224.021
    
    [GRAPHIC] [TIFF OMITTED] T6224.022
    
    [GRAPHIC] [TIFF OMITTED] T6224.023
    
    [GRAPHIC] [TIFF OMITTED] T6224.024
    
    [GRAPHIC] [TIFF OMITTED] T6224.025
    
    [GRAPHIC] [TIFF OMITTED] T6224.026
    
    [GRAPHIC] [TIFF OMITTED] T6224.027
    
    [GRAPHIC] [TIFF OMITTED] T6224.028
    
    [GRAPHIC] [TIFF OMITTED] T6224.029
    
    [GRAPHIC] [TIFF OMITTED] T6224.030
    
    [GRAPHIC] [TIFF OMITTED] T6224.031
    
    [GRAPHIC] [TIFF OMITTED] T6224.032
    
    [GRAPHIC] [TIFF OMITTED] T6224.033
    
    [GRAPHIC] [TIFF OMITTED] T6224.034
    
    [GRAPHIC] [TIFF OMITTED] T6224.035
    
    [GRAPHIC] [TIFF OMITTED] T6224.036
    
    [GRAPHIC] [TIFF OMITTED] T6224.037
    
    [GRAPHIC] [TIFF OMITTED] T6224.038
    
    [GRAPHIC] [TIFF OMITTED] T6224.039
    
    [GRAPHIC] [TIFF OMITTED] T6224.040
    
    [GRAPHIC] [TIFF OMITTED] T6224.041
    
    [GRAPHIC] [TIFF OMITTED] T6224.042
    
    Mr. Mica. I do have some questions.
    First, let me say, in response to your last comments about 
our requests for information, Mr. Colby has his responsibility 
in funding this program. The founding fathers set up this 
trilateral system of operation where we have the appropriators 
funding, authorizers authorizing, and we conduct investigations 
and oversight.
    This started in 1808, and I think it is one of the great 
things about our system versus other systems, and some have 
adopted even the same basic system that don't have the 
oversight responsibility.
    So our responsibility isn't to be bad guys or to give you a 
hard time, but when you have a billion-dollar program--it was 
done somewhat in a hurry because Congress wanted immediate 
attention to this, and now we do have an oversight 
responsibility.
    We only asked for the documents and the reports that we 
think substantiate and document how those funds were expended, 
and we will do that.
    In the beginning, we thought that we would have open 
access. Some of the vendors and others indicated, ``Anything 
you want, you can see,'' and then suddenly there was a shroud 
around all of the information.
    I do know that there are some constraints by which you can 
provide--some legal order in which you can provide the 
information to Congress, but we will get the information. If it 
requires subpoenas, we will get the information. If it requires 
working with your staff, we will get the information. And I 
don't think that we are interested in revealing anything 
confidential about payroll or names and things of that sort, it 
is just basic information to find out how the program is run 
and the cost effectiveness of it and how dollars are expended.
    I do have some specific information. I have sent repeated 
requests for specific information--project status reports, 
evaluation reports--I will give you copies of these--
subcontracts and subcontracting reports, none of which I think 
we should have a problem with, of which we still haven't 
received to date.
    But we will continue and we will have additional hearings 
and go over how the money has been expended.
    For example, I might cite one area. In the beginning--and I 
think you testified in one of the--you said you had been here 
five or six times.
    General McCaffrey. This is the sixth time.
    Mr. Mica. OK. In one of the previous hearings you had 
yourself testified--I can get the transcript of it--that the 
initial efforts were somewhat disorganized, I think you said, 
on the campaign, that you stayed up late at night and bantered 
about how to approach this. And then I guess the Porter and 
Novelli contract was one of the initial ones that helped in 
organization.
    In the beginning of ONDCP's effort to jump start a media 
campaign--that was back in September 1997--a contract was let 
to Porter and Novelli to develop an integrated strategy for 
this effort. According to your staff, later in 1997 ONDCP, who 
had already had a contract with Porter and Novelli, transferred 
funds to the Department of Veterans Affairs. The Veterans 
Affairs Department then contracted with ABT Associates for $1.9 
million. ABT later subcontracted back to Porter and Novelli for 
a contract worth $1.91 million. The result, as far as we can 
tell, is that ABT Associates received funds, but for what? And 
we are trying to figure out what the difference was in the 
money there.
    This is one example of the very beginning and core of this 
and how money went from agency to agency or contractor. So that 
is one question. I don't know if you want to address that now 
or could provide us with that information.
    General McCaffrey. The request for subcontracts you made on 
October 7, 1999, an oral request for a series of requests which 
we are now working on. We will provide all that. I will be glad 
to provide it. I don't think there is anything really sensitive 
in any of it unless it is covered by proprietary information or 
payroll data or something.
    You requested the initial stuff the first part of 
September, the contracts. You wanted them faxed down to you in 
your office in Florida. We delivered them on September 16th. As 
you know, it is a stack that high.
    You asked for the next series of information on September 
29th. We delivered it on October 7th.
    Basically, I have five guys, three lawyers. That's it. 
Sooner or later we are going to get you every bit of 
information you want. We are happy to show it to you, a 
successful campaign.
    I guess I am just asking from you, Mr. Chairman, an 
understanding that having groups show up unannounced to fish 
through the files, we can't do business that way.
    Mr. Mica. First of all, Mr. Director--and I will submit to 
the record a request February 24, 1999. ``Please provide a list 
of all the contracts that have been signed related to this 
campaign. Indicate the name of the contractor. Describe the 
work provided and the terms of the contract.'' February 24, 
1999.
    So, again, we are requesting----
    General McCaffrey. I think we have the same----
    Mr. Mica. I have in March another request, March 31st. I 
would be glad to put that in the record.
    All we would like is some basic information about how the 
money has been spent, copies of the contracts.
    General McCaffrey. You have that now, right?
    Mr. Mica. We also----
    General McCaffrey. You have all the contracts and you have 
12,000 documents relating to expenditures.
    Mr. Mica. Well, we have found that. Now we have the problem 
that we found that the contracts lead to subcontracts.
    General McCaffrey. Sure.
    Mr. Mica. And we would also like----
    General McCaffrey. Glad to give you that, too.
    Mr. Mica. Because there are huge amounts of money here, and 
then they go on down----
    General McCaffrey. Sure.
    Mr. Mica [continuing]. To other folks or to agencies.
    Then the other thing that we would like to see, for 
example, we have the--one of the contracts is with the National 
Institute of Drug Abuse [NIDA]. HHS awarded a $34.8 million 
contract to Westat to provide evaluation of phase three of the 
campaign.
    Our subcommittee requested from NIDA and Westat the 
required monthly reports of activities. Our staff was informed 
that, while Westat does submit monthly financial documents, 
they have not submitted monthly activity reports.
    This is in direct violation of the deliveries and reporting 
requirements, as stated in the RFP--and I have a copy of that 
attachment.
    So what we would like this is see what we can figure out is 
required by these RFPs, by the way things were supposed to be, 
and then the evaluations of the report.
    We are told in some cases ONDCP has not gotten copies of 
some of these reports.
    So this is another concern. It is a sizable chunk of money.
    General McCaffrey. Sure. Now, that Westat Corp. evaluation 
is extremely important to us, and I would be happy to share it 
with you either in raw data form or periodically, as we have a 
more informed and thoughtful analysis. But I absolutely look 
forward to providing you with Westat information.
    Mr. Mica. Then we have another contract. I try to take them 
in size. Fleishman-Hillard has a $48.7 million contract over 5 
years, and they are supposed to do the non-media-type campaign. 
Fleishman-Hillard was required to report and provide report to 
ONDCP on September 4, 1999, a report on basically what they had 
done as far as their annual report.
    At our last inquiry, it hadn't been provided to ONDCP, and 
neither could our subcommittee staff get a copy of that.
    Can we get a copy of that, and have you gotten that yet?
    General McCaffrey. Well, you know, the day before yesterday 
your staff asked. I have been informed about it. This is their 
requirement, which is a superb briefing by about 35 people with 
charts, slides, et cetera, and I would be glad to give you a 
copy of the slides.
    There will be a subsequent written evaluation we will get 
in the coming weeks, which I would be glad to provide you, too. 
But they are right on target. They are absolutely focused on 
this mission. My guess is I am getting damn near more than I 
can absorb from these superb people.
    But this is the presentation right here. It is in slide 
form.
    Mr. Mica. One of my concerns is, again, we have identified 
19 different contracts and agreements, and, I mean, this is a 
huge program----
    General McCaffrey. Sure.
    Mr. Mica [continuing]. With an incredible amount of money. 
What we don't have is a complete list, and we have been unable 
to get a complete list of how many contracts and subcontractors 
the campaign has, who is in charge of these, and who monitors 
the deliverables. Each of these have deliverables.
    General McCaffrey. Sure.
    Mr. Mica. Would it be possible to provide this subcommittee 
with a complete list of the contracts, the subcontracts, and 
also something on the deliverables, and then a little chart as 
to who is in charge of----
    General McCaffrey. Yes.
    Mr. Mica [continuing]. Making sure that X, Y, and Z----
    General McCaffrey. Well, let me work through this with your 
staff.
    Let me, if I can, I am going to come over here and sit down 
and listen very carefully for a good bit of time to what you 
want me to do, and then I will go make it happen. All those 
deliverables are in that stack of contracts your staff got. 
That is where they are. They are defined in the law.
    Mr. Mica. Yes. But that is not the question. The question 
is whether you are monitoring this, ONDCP, because we see 
that--and I have cited a couple----
    General McCaffrey. Sure.
    Mr. Mica [continuing]. Of deliverables, and your staff 
says, ``Well, they aren't delivered,'' or, ``We don't know,'' 
or ``We don't know who is in charge.''
    General McCaffrey. Must have been confusing, because we do 
know what we are doing, and I am in charge. I am accountable 
for this stuff.
    Mr. Mica. Well, do you have on one paper all the contracts 
and subcontracts?
    General McCaffrey. That is a very complicated thing. It 
might be a good idea to do this, put it on a computer program, 
let you all have access to it.
    Mr. Mica. Another thing, too, even with smaller agencies 
and smaller amounts of money, we have someone who conducts the 
oversight. Now, we are conducting oversight from a 
congressional standpoint.
    General McCaffrey. Sure.
    Mr. Mica. But within agencies they have IGs and others who 
do go in to look at has this been done, has that been done.
    General McCaffrey. Well, I am using the department IGs all 
throughout government, by the way----
    Mr. Mica. All right.
    General McCaffrey [continuing]. To check expenditures.
    Mr. Mica. Well, that would be great, and if we can get any 
communications or agreements----
    General McCaffrey. Sure.
    Mr. Mica [continuing]. For them to conduct that, just so--
--
    General McCaffrey. Fortunately, you also let me hire a 
contractor, so I have an accounting firm that actually watches 
every piece of paper. So we have $175 million in requests. We 
have, on delay, $4.6 million. We will require each contractor 
to come back and answer to us. So we are doing just that kind 
of thing. It is very important we do that.
    Mr. Mica. And that is part of what we need to conduct our 
responsibility, which is oversight.
    Well, I have taken more than my time. I have additional 
questions and requests. We will submit them to you.
    Again, we aren't trying to be hard-nosed about this. We do 
have an oversight responsibility----
    General McCaffrey. Sure.
    Mr. Mica [continuing]. And we want to do it in a proper 
fashion, and we do need to make certain that these huge amounts 
of money are accounted for.
    I have some questions, too, about the largest amount of 
money, which is $684 million over 5 years to Ogilvy & Mather, 
and we want to find out a little bit more about the structure 
of the contract and expenses, et cetera, and how that money is 
flowed through, and percentages of money spent on actual hard 
media buys. But we will get into that at a later point.
    At this time, I will yield to the gentleman from Maryland, 
Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    General McCaffrey. Mr. Chairman, if I could, I will give 
each of your committee members--this is the easiest way, it is 
dated, that I found to follow it. It talks about, both in 
dollars and percent, the amount we use on advertising versus 
other things--advertising, $191 million, for example, fiscal 
year 1999. Then it shows you, when you get into the advertising 
piece of it, how much goes on production media time.
    So it is a good way to follow it, and we can take these pie 
charts and follow them back into line item layout.
    Mr. Mica. Well, just in quick response, we do have the 
general numbers, the large numbers.
    General McCaffrey. Sure.
    Mr. Mica. What we are trying to do is look beyond that. And 
there are other elements in there. We have questions about 
commissions, about subcontracting, about production costs. But, 
again, we won't get into them at this point until we get all of 
that information in hand.
    General McCaffrey. Well, I am going to have the 
contractor--I will come over, make sure I understand what you 
want, and then I am going to task my contractors to respond 
specifically to any question you have, and we will be 
responsive to your information.
    Mr. Mica. That would be great, and we look forward to 
receiving that information and cooperation.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I wanted to make it clear that I do agree that this is an 
oversight committee and we should have oversight. I don't want 
anybody to be under the misconception that that is what I 
believe. I certainly do.
    But I want to--you know, there have been a lot of questions 
here, General, and the chairman said something that I am just 
kind of concerned about just a few moments ago. He talked about 
making sure that he received these documents that you all just 
discussed, and he would do whatever was necessary to get them, 
and I certainly understand that. But I would feel--I would be 
more than remiss if I didn't ask you this question. I think it 
would bother me.
    You don't have any problem providing documents to this 
committee, do you?
    General McCaffrey. Not at all.
    Mr. Cummings. I mean, it----
    General McCaffrey. We are proud of what we are doing.
    Mr. Cummings. So it is not a thing of trying to hide any 
information. You know, so often, I guess, when I come here--I 
keep saying I am a new Member, but I guess I am feeling kind of 
old at this now, but it just seems like so often, you know, we 
subpoena this and we subpoena that, and we have somebody here 
who wants to cooperate, has a limited staff, as I understand 
it, and just want some kind of structure in trying to get the 
information and some understanding. Is that--I mean, is that a 
fair statement?
    General McCaffrey. I think so. We would be glad to respond. 
As a matter of fact, I think I ought to remind myself that I 
have learned a tremendous amount from these congressional 
staffs. I think there are some real experts over here, and some 
of the Congressmen have been involved in this longer than I 
have. So I am glad to come over here and respond and learn from 
congressional leadership.
    Mr. Cummings. Now, some concerns have been expressed about 
using a paid media campaign instead of a donated air time and 
commercials. Can you tell the subcommittee why the 
administration embarked upon a paid media campaign?
    General McCaffrey. Well, a lot of what I initially knew 
about the issue and continuing huge influence on my own 
thinking comes from Jim Burke and the Partnership for Drug-Free 
America. These people have been at it for a decade and know 
what they are talking about.
    Their efforts were coming down year after year in support. 
We used to have three major networks, 85 percent of the media 
time. Now there are seven major networks, and they got under 
half the attention of the American people.
    So the thing is changing, and we need to respond with it. 
Our kids went to the Internet. We have to go there with them.
    It is a very sophisticated industry, and we wanted to 
influence youth attitudes, so PFA and ONDCP really have put 
this effort together, along with the Ad Council, which has been 
a huge impact on us, too.
    Mr. Cummings. The media campaign seems to be targeted to 
deterring first-time drug use and casual drug use. Is that a 
fair statement?
    General McCaffrey. No question. The biggest payoff, we 
think, in America is to save $2 million a head by not having 
kids get involved in extensive gateway drug-using behavior. If 
you don't get addicted, that is your savings to me as a 
taxpayer. So this is a prevention/education program aimed at 
children and their mentors. Quite correct.
    Mr. Cummings. So if we have someone who has already 
started, and not necessarily hard core, but just kind of 
experimenting, I mean, is there any of this aimed at that 
youngster, too?
    General McCaffrey. No, sir. We do have a series of measures 
that we are enormously proud of. Secretary Shalala, Attorney 
General Reno, and I have put together now more than a $3 
billion program which involves treatment interventions through 
a variety of systems that are linked to the criminal justice 
system, health system, and welfare system. That is where we get 
at a young person who is encountering chronic drug abuse.
    Mr. Cummings. Now, there have been some questions this 
morning about Ogilvy & Mather and Fleishman-Hillard. What kind 
of oversight controls do you all have in house to control what 
they do, because I think the committee is--I think all of us 
have said this in one way or another. We want to make sure--and 
I think you share this concern--we want to make sure that our 
tax dollars and our constituents' tax dollars are spent in a 
cost-efficient and effective way, and so I am just wondering 
what kind of in-house oversight do you have over these folks 
who are being paid so handsomely?
    General McCaffrey. Well, probably the best thing we did is 
we took about 6 months and had a contractor write our RFP, so I 
have contracting authority that--by analogy, I tell them I am 
going to act as if I was a CEO of a corporation and I am going 
to demand results out of these people. I have performance 
measures of effectiveness, and if they don't produce, each year 
that contract is redoable, and I expect them to produce 
results.
    We do have measures in place to chronicle whether they are 
achieving their goals.
    Now, having said that, let me hasten to add I think I am 
getting a lot more than I am paying for. I am proud of what 
both these corporations are doing, and the results are starting 
to show up.
    Mr. Cummings. Why do you say that, what you just said? I 
mean, that is a very interesting statement. So often the public 
gets the impression that we are not getting our dollars' worth.
    General McCaffrey. Well, one of the things we did is we 
wrote a cost-plus contract. I mean, there is really no one--you 
would say no incentive for any waste, fraud, and abuse here.
    Having said that, Fleishman-Hillard, just as an example, is 
under allocated cost.
    I also look at the kind of work hours. These people are 
working 18-hour days on these issues. I know I am getting lots 
of corporate support out of Ogilvy & Mather and Fleishman-
Hillard and their worldwide organizations. These are two 
industry giants. These are some of the best people in the 
global community on these issues, and they are really going to 
the wall for us.
    Mr. Cummings. I am about to run out of time, but just one 
question about the minority teen use of drugs going up. Can you 
comment on that for me?
    General McCaffrey. I think we ought to be really concerned 
about it. I have been holding a mirror up to America for the 
last 4 years reminding Americans that everyone is involved in 
drug abuse.
    One of the talking points was to say, ``Look, lifetime 
exposure rates to drugs go white, black, Hispanic.'' And if you 
look at young people 30 and under, African Americans have lower 
rates of drug abuse than any other segment of American society.
    The kids are going in the wrong direction. Now we are 
seeing--to include cigarette smoking. We are seeing African 
American youth moving up to get in the same statistical threat 
group that other Americans are, and I think it is a concern.
    We have some wonderful subcontractors with ethnic 
advertising focus.
    The African American/Hispanic piece gets about 78 percent 
of the $33 million focus on ethnic outreach, but we have an 
evaluational loop in place.
    The new material you will see coming out this year we hope 
will better respond to the needs of these diverse communities.
    Mr. Cummings. I noticed in the ads that you just showed us, 
if I remember correctly, all of them dealt with parents; is 
that right, all four of them?
    General McCaffrey. We were flighting these ads so that 
there will be periods where the central component will be 
parent effectiveness.
    Mr. Cummings. Right.
    General McCaffrey. But there is also a teen-to-teen 
component.
    Mr. Cummings. Yes.
    General McCaffrey. So it depends on which medium we are in.
    Mr. Cummings. Yes.
    General McCaffrey. When they briefed me--when Partners for 
a Drug-Free America comes in, they will tell me, ``Here is who 
the target is. It's the 14-year-old age group, and this one is 
aimed at Asian American.'' So they will show me the copy with 
who they are targeting, and it is a very sophisticated 
approach. It then gets tested before we go to production.
    Mr. Cummings. This is my last question. I guess we will get 
somebody on another panel maybe to tell us this, but when you 
have an ad like the one where these people--like the guy was 
doing the e-mail, and it is the end of the day, and they are 
talking about, ``You need to get a hold of your kid,'' that is 
supposed to affect a parent and a kid?
    General McCaffrey. Well, parent effectiveness. Part of the 
message is to make sure parents are aware that when they talk 
to their kids with a no drug use message, children actually are 
listening to it and are affected by it. We know that from 
National Institute of Drug Abuse studies. But we have to make 
sure parents understand that, because you will hear 
conversationally, ``Well, we shouldn't talk about it. It just 
piques their curiosity, and more will use drugs if you mention 
that.'' That is a silly argument. If you applied the same thing 
to drunk driving or shoplifting or unprotected premarital sex, 
it is just a--but those ads right there are after parent 
effectiveness.
    Mr. Cummings. OK. Thank you.
    Mr. Mica. Thank you.
    I will now recognize the gentleman from Indiana, Mr. 
Souder.
    Mr. Souder. Thank you.
    Thank you for being here today, General McCaffrey. We 
appreciate your continued efforts.
    I have a couple of different questions, and a few very 
specific questions.
    We are working through the Drug-Free Schools and Safe 
Schools Act, which hopefully will get done this fall, but it 
may spill into next spring. And one of the things we are trying 
to do is tighten up that program to where it has more direct 
anti-drug and safe messages. Sometimes it gets pretty 
fragmented. In addition, our juvenile crime task force is 
proceeding ahead.
    I applaud, in going through the details of your statement, 
your interactiveness, and I hope that, particularly with the 
continued concerns about juvenile crime and what some have 
focused on coming from that are the character counts programs 
and a lot of the basic social fabric breakdown.
    I hope, in the mix of what you are doing with the direct 
anti-drug groups, as well as the YMCA, and so on, we are seeing 
a big revival of concern right now in this country about the 
general character, and to see, in as many of those programs as 
we can, that we get it slipped in the anti-drug, anti-alcohol, 
tobacco, marijuana messages, too.
    General McCaffrey. Yes.
    Mr. Souder. And I just wanted to say we are pursuing that, 
and, as we see this, it is likely to blossom in the next year 
as far as where Congress is focused. I wanted to emphasize 
that.
    I am intrigued and am unclear a little from your statement 
and also, as comparing it to the statement that Dr. Johnston 
has presented later about what the free media program is 
working.
    He states in his testimony that it has dropped from 1991 to 
1997 from $365 million to $220. In your statement, I believe 
you said it is 109 percent, which you had at, like, $145 
million, and had the in-kind from the industry basically 
agreeing with his $220.
    General McCaffrey. His figure was dropped on pro bono?
    Mr. Souder. From $365 to $220 from 1991 to 1997.
    General McCaffrey. That is $365 million?
    Mr. Souder. Yes.
    General McCaffrey. Yes.
    Mr. Souder. To $220. And your figure----
    General McCaffrey. But that is PDFA data, isn't it? That is 
Partners for Drug-Free America data?
    Mr. Souder. I don't know.
    General McCaffrey. Yes. That is Jim Burke's number. It is a 
good number. That is what happened. That was the problem that 
caused us to come ask you all for help.
    Mr. Souder. And in his testimony he mentions things like 
the Gulf war, and we have had a proliferation of other social 
problems that they are focused. At the same time, when we put 
this amount of media in, in effect we are getting back to where 
we were in 1991 figures, if you take the ad buy plus the pro 
bono.
    Do you believe that can be leveraged more, or do you 
think--how can we continue to push back to 1991 levels?
    General McCaffrey. Well, I----
    Mr. Souder. I don't want to seem ungrateful for what they 
are giving.
    General McCaffrey. Yes.
    Mr. Souder. But the fact is it is a substantial drop, and, 
if necessary, Congress can take actions to force mandatory 
time.
    General McCaffrey. Yes. Well, Mr. Congressman, thanks for 
your work on safe, drug-free schools. It does need a re-look. 
Secretary Dick Riley and I did as best we could, put together a 
package. Those were good hearings you all had.
    I don't have a fixed view. I do think it needs to be re-
looked. We need accountability. Governors ought to be in 
charge, not Secretary Riley and I, and we need reports. And I 
think we need prioritization.
    So your leadership on that--I will look forward to hearing 
how Congress comes out on the bill.
    Your comments on matching character ads, alcohol is a good 
one. That 109 percent match includes 33 different 
organizations. Three of them are anti-alcohol in nature. We got 
$12 million worth of anti-alcohol underage drinking ads on 
already. This is a huge contribution from the Advertising 
Council.
    They have a Creative Review Committee, too, so these ads 
have to pass muster as being scientifically accurate. They are 
tested, and then they go out to media markets all over the 
country, and they are getting used.
    Unlike 10 years ago, they are stimulating, because, by law, 
we tell them, ``If you want a matching credit, you can't put it 
on at 2 a.m. There are some rules here.'' The media is 
responding magnificently.
    So we are moving in that direction. When you see their work 
that will come out shortly, you are going to be thrilled with 
it.
    The question on whether or not we are getting--do we spend 
$195 million and get back where we were in 1991? No, sir. This 
is enormously different. This is not just TV ads on national 
media. This isn't throwing things to the wind and seeing if 
they get used. This is a very carefully planned, calibrated 
campaign with 102 different strategies where the media buy--
when you talk to our leader, Shona Seifert here, you ought to 
ask her how do we go about planning these media buys so we know 
where the target audience is and we are going there with a 
message that they are going to hear and shape their thinking.
    I might also add that when we buy this stuff and we do it 
18 months in advance, we get huge increases in coverage. That's 
another thing that doesn't come out in some of these briefing 
charts. We essentially, if I remember, it was more than a 30 
percent reduction in cost because of our buying plan.
    Mr. Souder. Perhaps we will be able to followup some later 
in this meeting, but I have a couple of specific questions 
that, if you can't respond here, if you can get back to me on. 
One is--and this is a real fast one--the Partnership for Drug-
Free America commercials were developed pro bono. I can't tell, 
from looking through your detail. It looks like a lot of what 
you are contracting out at this point are placement, research, 
and so on. Are the actual creative development things--are we 
paying for that, or is that still pro bono? And do you feel 
that, if we are paying for it, that the qualitative difference 
beyond--there is some targeting, but could that not have been 
done pro bono?
    I know we have had extensive discussions here about 
particular media subcontracts, but I am concerned in some of 
the dollars that are showing up on Media Scope, in particular, 
and, without knowing a lot of the detail, the reports here are, 
on the surface, disturbing, because I can see that they have 
been challenged to some degree internally, and that's one of 
the specifics that I, too, am concerned about as you proceed.
    I have no idea. And let me just say, as a general rule--and 
I would like to say this clearly for the record--I am most 
concerned that the dollars get maximized. And I understand that 
that takes research, auditing, placement costs, and all that 
kind of stuff, but the particular sales that we made in going 
around the Authorizing Committee and putting it in an 
appropriations bill, which is the way this program was done, 
and the way Congress accepted it was that this was going to 
actually be media time.
    Now, I understand that media time spent unwisely is wasted, 
and you have had to try to balance some of those, and I 
understand the development of the Internet and so on. I also 
understand the importance of internal accounting and auditing, 
and I don't want to have the questions that we are asking 
become such a drain that we are not accomplishing our first 
goal.
    At the same time--and I have nothing but complete respect 
for you, and I understand the frustration, but you also have to 
understand some of our concerns in this committee.
    I tell you, in category after category, as we've looked at 
Interior Department, as we've looked at the Justice department, 
as we've looked at different things, there have been 
questionable contracts.
    I don't know how to balance this. I absolutely am not 
making a single accusation. I am concerned that we are going to 
bog you down for 2 weeks in paperwork instead of being out 
doing. But there is one that the Media Scope comes under 
entertainment. It's $30,000 a month. We couldn't get an 
explanation for it. We'd like to have some kind of explanation. 
It may be a very logical explanation.
    General McCaffrey. Well, Mr. Congressman, I think your 
concerns are appropriate. We should be able to answer all these 
questions.
    I don't think there is any--I don't think we really have 
many questions, that we see clearly what we are doing. We can 
identify the various subcomponents. They are based on studies. 
There is a very specific oversight responsibility.
    That Media Scope, for example, we wanted to go get 
scientifically valid data about the nature of drug abuse in 
music, movies, television, and we did it. We are doing it.
    So it is important to us really to have a handle on--when I 
go out to the Entertainment Industry Council and try to 
influence the actual production of TV series--and we are doing 
that. We are not violating first amendment rights, but we've 
gone out there. Fleishman-Hillard is doing a lot of this for 
us. We are conducting seminars so that writers, directors, and 
actors get a good insight into the nature of drug abuse among 
adolescents.
    We told them, ``Put anything you want into this stuff, but 
make it look like it really does in real life.''
    That's a lot of what is going on with those kinds of 
programs.
    But I would be glad to respond.
    Let me make one statement categorically, though. We are not 
buying ads. We are paying production costs, particularly when 
you talk about 11 languages and going after the Hispanic market 
in Spanish. By the way, we did that more than four times a week 
last week. If your native language was Spanish, we talked to 
you four times last week in Spanish.
    And so we got to do production costs, particularly the 
struggling minority advertising firms, but this is pennies on 
the dollar. We get a huge impact for going about it this way.
    By and large, though, the huge chunk of the dollars is 
still advertising media buy. Shona Seifert is the quarterback, 
and they do know what they are doing, and I spend hours 
listening to her team tell me until 11 p.m., where this stuff 
is going. We are following it real closely.
    Mr. Souder. Thank you.
    General McCaffrey. Yes, sir.
    Mr. Mica. Thank you.
    Mr. Kucinich from Ohio.
    Mr. Kucinich. If Mr. Barr wants to go first, it is OK with 
me.
    Mr. Mica. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. I appreciate the 
gentleman from Ohio.
    As I mentioned to you, General McCaffrey, I remain very 
concerned, as I know you are, about the drug legalization 
initiative in the District of Columbia. It is these sorts of 
things, when the President issues a public statement that is 
very properly and accurately read as supportive of that 
initiative in D.C. when he cites the efforts here in the 
Congress to block that as one of the reasons why he vetoes the 
spending bill, that can undo tremendous gains that are made 
through programs such as those that we are discussing here 
today.
    Have you, since the President's veto message on the D.C. 
appropriations bill, had any discussions with the President or 
the White House about that? Have you voiced your concern or 
opposition to it?
    General McCaffrey. Absolutely. I mean, it was very closely 
followed by us.
    I sent my Deputy to testify in Congress for the committee. 
I was glad to be able to do that. And I asked Dr. Don Vereen to 
come over because it really made the point. He is a nationally 
known drug research expert, a former NITA research scholar. He 
is a psychiatrist, a physician, a public health guy. And we 
wanted to unmistakably communicate--and we provided our 
briefing charts to Congress. We want medical drugs decided by 
the National Institute of Health and the Food and Drug 
Administration, not by political referendum. This is not the 
way to go. This is a mistake.
    We got a good study out of the American Academy of 
Sciences. That's what we support, not these referendum.
    To be honest, in the short run it is sort of a crock. I 
hate to be rude about it, but we got synthetic PAC, marinol, 
available in pharmacies right now with a doctor's prescription. 
We'd be glad to study other canabanoids and see if they have 
symptom management capability, but smoked pot, a blunt stuck in 
your face in an ICU, is unlikely to be medicine. That's what 
the American Academy of Sciences said.
    Now, on the other hand, Mr. Congressman, with your 
permission, I would rush to avoid getting involved in a 
legitimate debate between Congress and the administration over 
home rule, et cetera. I've tried to stay out of that and focus 
on the medical marijuana issue.
    Secretary Shalala and I and others are on the record and 
our position is unwavering.
    Mr. Barr. I agree with your perspective. It is an issue 
about the drugs and not about home rule. But it is just very 
disappointing that the tremendous gains that can be made, 
whether it is through a just say no or just say no type program 
or some of the ad campaigns that I think are effective that 
we've talked about here this morning can be undone by the 
position the President has taken on this particular issue.
    I also think that it would be a tremendous benefit to the 
education effort in which you and those with you here today and 
those of us here in the Congress who believe in the anti-drug 
message are trying to engage in if the President would take up 
this ball and run with it, which he will not do, apparently.
    I think the number of major speeches that this President 
has given on addressing the issue of mind-altering drugs is 
less than six in 7 years.
    If the President would take to the airwaves, use the bully 
pulpit of the White House, rather than indicating his support 
for a drug legalization effort in the District of Columbia to 
get the message out there that you are trying to get out and 
that these ads are trying to get out, it would help 
tremendously, I think.
    I know or at least I presume that you've talked to him 
about this and encouraged him to speak out on this issue, and I 
hope others have, as well. It just doesn't seem to be getting 
through, and I think it is unfortunate, because it really could 
aid our effort, and I would certainly encourage you to continue 
in those efforts to get the President to speak out against 
mind-altering drugs with greater frequency and much more 
loudly.
    Down in my District in Georgia, which is included in the 
Atlanta media market--while I don't have the opportunity to 
watch much TV, I do listen to the radio occasionally when I am 
driving the District, and I have heard the ONDCP ads, and I 
think they are very, very good. I hope we can do more of them.
    As many of us in politics know, radio can be a very, very 
cost-effective means of getting a message out. Is radio being 
utilized in these efforts that we are talking about here today 
to the fullest extent?
    While the TV ads I think are very effective in their own 
right, you can get a tremendously larger bang for the buck in 
radio advertising. And is radio advertising, in your view, 
through this campaign, being utilized to the fullest extent? 
And if you could give me some idea--it may be in some of the 
materials here--some idea of the dollar amounts that are being 
spent on radio versus TV advertising.
    And, by the way, one thing I would--and I don't know 
whether you have done this, but I would like to hear you on 
some of those radio ads. I think the prestige that you would 
bring to it, being identified as who you are and what you are 
doing, would be very, very effective.
    I know that other private groups use celebrities to do 
that. I'd like to hear you on some of those ads. Is this 
something that you would consider, or is it being done in some 
markets?
    General McCaffrey. Well, Mr. Congressman, I thank you for 
those remarks.
    Let me, if I can, briefly talk about the President's role 
in this. And, again, I tell you bluntly I am a nonpartisan 
officer of government.
    In 4 years, the President has supported me on this issue 
without stint, and at times when it was politically tough on 
him to do it--needle exchange, medical pot, et cetera.
    Mostly, what I tell people is, ``Look, at the end of the 
day in a balanced budget environment, we went from $13.5 
billion to $17.8 billion.'' I know congressional leadership was 
vitally important to that, but I got that out of OMB and the 
President.
    I am appreciative of his support, and he has also allowed 
me the leadership responsibility of getting Janet Reno, Dick 
Riley, Donna Shalala, the police, et cetera, involved in this. 
And he has spoken out on medical pot, and we've got an 
administration position. This isn't mine, this is ours. Now----
    Mr. Barr. Yes, but when he speaks out on it 2 weeks ago and 
giving as one of his reasons explicitly for vetoing the D.C. 
appropriations bill the fact that Congress, on behalf of the 
people of this country, included a measure against the 
legalization of marijuana in D.C., it, at best, presents a 
contradictory or muddled message, and I think it presents the 
wrong message.
    General McCaffrey. There were these other issues, and it is 
unfortunate they all got cluged together, but I hear you, I 
recognize what you are saying. I do want to, in all fairness, 
say the President and his OMB Director have stood with me for 4 
years and I am appreciative of it.
    Now, let me, if I can, go on to your other two comments.
    Is radio effective? Absolutely. Huge leverage, targeted 
market, local radio--they know who is listening to various 
kinds of shows. They are on the air in Cantonese in San 
Francisco. If you want to talk to moms and dads of first-
generation families, you've got to go on Chinese-language 
radio. Same thing in some Native American dialects. So it is a 
huge tool.
    Mr. Barr. Does that include southern in Georgia?
    General McCaffrey. Well, that's even different dialect, 
right. It's a nice dialect. But I will give you a breakout.
    We are using that tool and it is very flexible, and the 
Advertising Association has been a huge help in that, too.
    On me being on ads, I am--we will take that into account. 
That may be a good idea. I've done some pro bono with Montel 
Williams, with a lot of the gold medal athletes. What a thrill 
to be with Frank Shorter and some of these other national 
heros, Donna Verona. So we can look at that.
    But, by and large, what we are doing is we are going to 
this behavioral science expert panel. We are saying, ``How do 
you influence a 12-year-old kid?''
    For example, you want to talk to a 12-year-old, go get a 
14-year-old actor. That's who they want to be like, not like 
the drug policy director.
    And we are pretty sophisticated in our thinking.
    Mr. Barr. They might surprise you. Maybe we ought to be 
doing something very subtly to make them want to be more like 
you than some of these other folks.
    General McCaffrey. Well, I clearly talk to kids all the 
time. A couple weeks ago, one of the high points of my life, 
17,000 kids, L.A. Coliseum, the DARE Convention. So I talk 
routinely to groups of as many as 10,000 children--pride 
organizations, any group of kids that show up here, we are 
engaged with them. We are on video. We do videos all the time. 
If you are having a conference, I will talk to the conference 
over video if I can't get there.
    So your point is a good one. And Donna Shalala has been a 
tremendous partner doing the same thing with me.
    Mr. Barr. Did you say, General--and I apologize and I 
appreciate the indulgence--that you would get me--do you have 
the figures on the breakdown on how much is being allocated to 
radio as opposed to television?
    General McCaffrey. Well, one of the problems is we've got 
102 different media buying strategies, and essentially the note 
I got is 15 to 20 percent of the budget, depending on the 
State.
    So, for example, in Congressman Mica's District in south-
central Florida we go after heroin abuse at a very high rate. 
It's a huge problem to young people in that State. So the 
nature of the ads, the very ads you are hearing or seeing, are 
different than the ads you might see in Georgia. But 15 to 20 
percent of the budget, depending on the State.
    And it is very important--and our African American audience 
is an example. That's the way to talk to African American 
adolescents.
    Mr. Barr. Thank you, General.
    Mr. Mica. If I may, I am going to yield 2 minutes to Mr. 
Kucinich, and then we will get the balance before the vote to 
you.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, and thank you, General McCaffrey, 
for the work that you've been doing. I've worked with you on 
the high-intensity drug trafficking matter, and I appreciate 
your help there.
    I saw the commercials when you ran them, and I've seen some 
of them on TV in the market that I live in Cleveland. You know, 
I think that this kind of an undertaking is so enormous that it 
has to be regarded, the kind of effort that goes into it, so I 
wanted to thank you and all those who are part of it.
    You can understand, though, the chairman's concern. There 
has to be accountability on this, there's so much money 
involved, so that's what we are here for, to ask questions.
    I have a very brief question, and that is: the amount of 
money that is being spent, the hundreds of millions of dollars 
in buying this time, who is buying the time, and are they 
commissioned when they buy the time or do they buy the time pro 
bono?
    General McCaffrey. I am sorry, Mr. Congressman, would you 
repeat that question?
    Mr. Kucinich. Somebody buys the time.
    General McCaffrey. Right.
    Mr. Kucinich. Do they get a commission on the time that 
they buy?
    General McCaffrey. No. I think we ought to give you a 
detailed layout on how the media buy is done, both mechanically 
and over time.
    Mr. Kucinich. That would be nice. I used to do that. That's 
why I am curious about that.
    General McCaffrey. I see.
    Mr. Kucinich. Because usually there is a 15 percent 
commission involved.
    Mr. Mica. Could you answer or somebody tell us if there is 
any commission involved, because that is a $684 million----
    General McCaffrey. Well, let me give you a detailed answer.
    Ogilvy & Mather gets a fixed fee on the contract.
    Mr. Kucinich. Does that include--is that exclusive of or 
does it include the commission on the time that they buy? For 
example, if someone buys $1 million worth of TV time, there are 
contracts where they get 15 percent or $150,000.
    General McCaffrey. Yes.
    Mr. Kucinich. Is this already included in their contract, 
or do they get something over and above it, just out of 
curiosity.
    General McCaffrey. Yes. Let me give you an answer for the 
record on exactly how the fees are allocated.
    Mr. Kucinich. That would be fine. I appreciate it.
    General McCaffrey. Yes.
    Mr. Kucinich. Again, thanks. This is very interesting. Keep 
up the good work.
    Mr. Souder. Mr. Chairman, may I add one subpoint, because I 
think it is what the Congressman was trying to get to.
    Mr. Mica. Yes.
    Mr. Souder. For example, as somebody who also placed media 
buys--and I am sure this is a fairly easy thing to answer--but 
the commission is usually around 15 percent. Sometimes they 
will kick it down to 7 or 5. And, in fact, if you don't take 
the commission, they will lower your rates 15 percent, and 
that's the difference in the amount of contribution that you 
could----
    Mr. Mica. Yes. Well, we also want to know if the $40 
million was paid to them and then subcontracts and then 
commissions on top of that. It could mount up with a $684 
million contract, a sizable amount. But those are some of the 
questions we are trying to get answered to Mr. Director.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I will be brief, and I 
will submit these for the record, given the time.
    My concern has to do with the nicheing of the ads. That is, 
who is taking, for instance, the 12 to 14-year-old Hispanic 
market, who is taking the 14 to 16-year-old white market as it 
relates to these contracts over here? I will submit that 
question for the record.
    The second question has to do with the actual measurements 
of effectiveness of the different ads and how to quantify that.
    It would seem to me that the bottom line is: do the ads 
reduce use of drugs?
    General McCaffrey. Right.
    Mr. Ose. And I am trying--I see the empirical evidence on 
the charts as they exist, but I am trying to figure out how we 
could get a quantification----
    General McCaffrey. Yes.
    Mr. Ose [continuing]. Of the impact.
    Mr. Chairman, if you will, I will submit that for the 
record, also.
    General McCaffrey. Yes. Well, that is a question. You are 
right. One is do they hear the ad, is it credible, does it 
influence their attitudes, does it then influence their 
behavior, and that's exactly what we owe you over time, but not 
just from a macro level. We have to see inside the target 
evidence.
    Mr. Ose. You bring up an interesting point, because the 
graph you showed us is a compilation of different, if you will, 
markets.
    General McCaffrey. Yes.
    Mr. Ose. And we might be very effective in one market----
    General McCaffrey. Absolutely. Good point.
    Mr. Ose [continuing]. But not effective in another.
    General McCaffrey. Yes.
    Mr. Ose. And I'd like to correlate the relative 
effectiveness of those markets to these different contracts.
    General McCaffrey. Yes. That's a good point.
    Mr. Ose. For instance, Bates Advertising might have this 
market and it is doing very well, and CSR might have that 
market and it's not doing very well at all.
    General McCaffrey. That's a good point.
    Mr. Ose. That would be informative to me.
    General McCaffrey. I think next year we will have a fight 
going on over who gets credit for reducing youth drug abuse. 
That's what is going to happen, and trying to disentangle to 
what extent is this community coalitions, is this the ad 
campaign, is this good law enforcement, is this the Rotary 
Club, YMCA. That's what's going to happen.
    At that point, we are going to have some tough--that's why 
Westat Corp.'s evaluation contract is important to us, to try 
and understand that process.
    By the way, Mr. Chairman, if I can, although I encourage 
you to ask Ms. Seifert of Ogilvy & Mather--the note they passed 
me was, ``No commission on any buys.''
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Ose.
    Mr. Director, we do have additional questions, and we will 
be submitting them both from the minority and majority to you, 
but, again, we are not trying to be tough guys or mean guys in 
this process; merely just sort through how some of these very 
substantial expenditures have been made, and some others that 
raise questions.
    I didn't get into it, but we had one instance here where 
our staff talked to Mr. Richard Pleffner--is it Pleffner, your 
ONDCP contracting officer?
    General McCaffrey. Yes.
    Mr. Mica [continuing]. About an aspect of a Fleishman-
Hillard contract in the amount of $186,000-plus, which then, I 
guess, they subcontracted to Media Scope in the amount of--and 
there were expenditures in the amount of $156,000 for 
entertainment, and we asked for some documentation on 
description of the services that were provided. Mr. Pleffner 
could not tell us exactly what that was for.
    These are just basic questions on, in some cases, very 
significant amounts of money. The questions I also raised about 
the subcontract for Porter Novelli, what happened to the 
$50,000, the difference in that contract, and some of the other 
questions that we've raised, particularly the NITA contract and 
the funds that went back and forth through that agency.
    So, again, we are not trying to be mean or ornery or 
overreaching our bounds, but merely trying to find out how 
these funds are expended.
    General McCaffrey. Yes.
    Mr. Mica. So we look forward to receiving answers and 
replies and working with you and, again, seeing that this 
program is effective and has effective oversight.
    General McCaffrey. Sure.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.043
    
    [GRAPHIC] [TIFF OMITTED] T6224.044
    
    [GRAPHIC] [TIFF OMITTED] T6224.045
    
    [GRAPHIC] [TIFF OMITTED] T6224.046
    
    [GRAPHIC] [TIFF OMITTED] T6224.047
    
    [GRAPHIC] [TIFF OMITTED] T6224.048
    
    [GRAPHIC] [TIFF OMITTED] T6224.049
    
    [GRAPHIC] [TIFF OMITTED] T6224.050
    
    [GRAPHIC] [TIFF OMITTED] T6224.051
    
    [GRAPHIC] [TIFF OMITTED] T6224.052
    
    [GRAPHIC] [TIFF OMITTED] T6224.053
    
    [GRAPHIC] [TIFF OMITTED] T6224.054
    
    [GRAPHIC] [TIFF OMITTED] T6224.055
    
    [GRAPHIC] [TIFF OMITTED] T6224.056
    
    [GRAPHIC] [TIFF OMITTED] T6224.057
    
    [GRAPHIC] [TIFF OMITTED] T6224.058
    
    [GRAPHIC] [TIFF OMITTED] T6224.059
    
    [GRAPHIC] [TIFF OMITTED] T6224.060
    
    [GRAPHIC] [TIFF OMITTED] T6224.061
    
    Mr. Mica. So we thank you for your cooperation and we thank 
you for your efforts in getting this campaign kicked off and 
working with us to date.
    Without objection, the record will be left open for 30 days 
to submit additional questions to this witness by both the 
minority and the majority. So ordered.
    I thank you, Mr. Director. We are going to excuse you at 
this time.
    We have a vote, and the subcommittee will stand in recess 
for approximately 15 minutes and we will reconvene with the 
panel at that time.
    [Recess.]
    Mr. Mica. For our second panel--and we welcome them--this 
afternoon we are going to hear on our second panel from Ms. 
Tinker Cooper, who is with Families Against Drugs from Orlando, 
FL. We are also going to hear from Mr. Harry Frazier. Mr. 
Frazier is senior vice president of Fleishman-Hillard, Inc., 
Washington, DC. And then we are going to also hear from Ms. 
Shona Seifert of Ogilvy & Mather of New York City.
    You are all standing. You know that you are sworn. This is 
an investigative panel of Congress.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative.
    I would like to welcome all three of you here. We have, I 
think, the two major firms that have been contracted to provide 
assistance with our paid media campaign, and we also have one 
individual who is from central Florida who I have had the 
opportunity to know. Unfortunately, she is the mother of a 
victim of an overdose of heroin. Her son, Joe Stevens Cooper, 
died 2 years ago from a heroin overdose. She has taken that 
particular personal tragedy and turned her efforts toward 
trying to make positive progress in our war on drugs and her 
own effort, and she has combined her efforts with other parents 
of those who have lost loved ones in this tragic problem we 
face of illegal narcotics and its ravages. She is not only 
working with other parents and others in the community such as 
our sheriff, Kevin Berry, but also with Governor George Bush 
and others to bring the message to our community and across the 
State of Florida from the private sector and private individual 
efforts how we can bring attention to our young people and 
others in our community about the ravages and potential fatal 
damage that can be done by illegal narcotics.
    So we are going to hear several different perspectives, and 
the first individual we will call on will be Ms. Tinker Cooper, 
and, again, she represents today before our subcommittee 
Families Against Drugs, and she is from Orlando.
    Welcome, Ms. Cooper. You are recognized.

 STATEMENTS OF TINKER COOPER, FAMILIES AGAINST DRUGS, ORLANDO, 
  FL; SHONA SEIFERT, OGILVY & MATHER, NEW YORK CITY, NY; AND 
HARRY FRAZIER, SENIOR VICE PRESIDENT, FLEISHMAN-HILLARD, INC., 
                         WASHINGTON, DC

    Ms. Cooper. Thank you.
    I am a mother of one of the many young people that have 
died in recent years in central Florida from drug overdose.
    After Joe died, I started doing drug education, and that's 
when I realized I really didn't know too much about the drugs 
of today. So I teamed up with Captain Ernie Scott of the Orange 
County Sheriff's Office narcotics unit, and I got myself 
educated. Together we have since formed the nonprofit 
organization Families Against Drugs, which initially was a 
support group for families of overdose victims, because society 
views the death of our kids as somehow less significant then a 
death of a child from any other means.
    We have since turned into an action group. We didn't want 
to sit around crying and feeling sorry for ourselves. We wanted 
to do something about this drug epidemic. So we turned into an 
action group, and we do education, legislation and 
rehabilitation. At the moment we are currently working on 
developing an overdose hotline that is routed not through law 
enforcement but directly to fire/rescue so that the kids can 
feel comfortable in calling for help in an overdose situation 
without worrying about the law.
    We have been concerned about the type ads that we are 
seeing on TV for anti-drug messages. The kids today are very 
sophisticated. They live in a high-tech world with the Internet 
and everything. These ads with pretty young women smashing up 
kitchens with a frying pan and dancing ballerinas on top of a 
jewelry box, have no meaning to them. They need to see reality.
    We are under the impression--and hearing here today from 
Mr. Mica the amount of money that has been allocated for these 
ads and to the donated time and money, the figure is close to 
half a billion. That's a lot of money. We need to start putting 
that money into something that is really going to work with 
these kids. If anything is going to help, it has got to stop 
these kids now.
    I, along with two other parents in central Florida, helped 
the Orange County Sheriff's Office make a video called, 
``Overdose: End of the Party.'' We used actual crime scene 
photos of young people as they were found in death, because we 
felt they needed to see the reality of drug overdose. It is not 
a pleasant video, but it really wasn't meant to be pleasant. It 
was to be a hard-hitting, in-your-face type thing to get their 
attention. And it is working.
    These are not actors. They have real kids in them, real 
blood, and they are really dead. But we know of several young 
people that have gone into detox from heroin after seeing the 
video.
    Every single time we show it in schools, rehabs, jails, 
anywhere that we show it, kids always come up to us and say, 
``If I had seen something like this before I got involved with 
drugs, I never would have started using.''
    We have three different versions of this. We have a youth 
version, an adult version, and a Spanish version to reach the 
Hispanic community, and we are currently working on another 
video that we hope will be equally as effective showing all 
aspects of drug use.
    We have parents that have lost their kids to overdoses. We 
have parents that have their kids in rehab now, or still on the 
street using. We have parents that have lost children in car 
wrecks because they were drinking and drugging. We have parents 
who have lost kids to suicide because of alcohol and drug use. 
We even have a family that right now is living the nightmare of 
caring for their 20-year-old son, who has been a vegetable 
since April 11th from a drug overdose. And we have people in 
the group who have lost a sibling or a spouse or a friend. We 
also have kids that have successfully completed treatment.
    So we are putting together a video of this nature so that 
the kids can see reality. We feel that they need to see this. 
These are the things they need to see--reality of drug use, not 
fantasy. They need to know what each drug is going to do to 
their bodies and their minds. They need to know what their drug 
use is going to do to their personal life, their families, 
their friends. They need to know their options.
    Their options are: death, coma, jail, rehab, wasted lives. 
They need to know that the drugs of today are so much more 
potent and dangerous than they were in the 1960's and the 
1970's, and the chance of addiction is very high with these 
drugs.
    The drug addicts of today are not people with shady pasts 
and no hope for a future. The drug addicts of today are my kids 
and your kids, and we need to do a better job of educating them 
and their parents, because I will tell you those parents don't 
have a clue what's going on out there. I thought I was pretty 
up on drugs, but after Joe died I didn't know anything.
    We need to educate the parents as well as the kids.
    Congressman Mica has asked me to show a 2\1/2\ minute 
excerpt from the video, ``Overdose,'' and when we get enough 
funds to finish the one we are working on, I will see to it 
that he gets a copy of that to share with you, too.
    I thank you for the opportunity to speak here before you.
    Mr. Mica. Thank you.
    [The prepared statement of Ms. Cooper follows:]
    [GRAPHIC] [TIFF OMITTED] T6224.062
    
    Mr. Mica. We will have questions, but at this time we will 
go ahead and show that 2\1/2\ minute segment.
    [Videotape presentation.]
    Mr. Mica. Thank you. Thank you for that segment and also 
for your personal and private sector efforts to get this 
message out.
    Now we will hear from--I guess we will do this in order of 
magnitude of expenditures. Ms. Shona Seifert with Ogilvy & 
Mather from New York City, you are recognized.
    Ms. Seifert. Good afternoon, Chairman Mica, representatives 
of the subcommittee. I am honored to be here today and I 
welcome the opportunity to share our insights with you and 
answer your questions on the national youth anti-drug media 
campaign.
    As a context for discussing the campaign, I'd like to 
summarize my own background and the credentials of Ogilvy New 
York, the company I represent.
    I have 16 years experience in the advertising industry, 
spanning three continents and every consumer product category. 
I've led and implemented campaigns for products as diverse as 
BMW automobiles, American Express charge cards, SmithKlein 
Beecham Pharmaceuticals, Huggies diapers, Gillette shaving 
systems. Almost every client I have worked for has been a 
Fortune 500 company, and I've consulted with several of the 
world's most respected pro bono organizations, including the 
World Wildlife Fund.
    I spent 4 years with Ogilvy in London, 5 years working for 
Ogilvy across the Asia Pacific Rim, and the past 7 years in New 
York.
    I have been personally involved in developing advertising 
in many of the world's languages--Chinese, Vietnamese, Tagalog, 
Malay, French, German, Italian, Spanish, Dutch, Portuguese, 
and, obviously, English.
    Ogilvy was appointed as the advertising contractor for the 
National youth anti-drug media campaign in January 1999. We 
were awarded the contract after an extensive 8-month review 
process involving hundreds of other communication companies.
    Ogilvy was selected because of its unique credentials and 
market clout. Our media buying organization purchases more 
national broadcast media than any other advertising agency in 
this Nation. In fact, we buy more than $2 billion of air time 
every year.
    This gives us unique access to the lowest possible pricing, 
and Ogilvy has generated broadcast media savings for ONDCP of 
over $25.6 million in this year, alone. And those are only the 
broadcast buy savings. There are more savings beyond those.
    We know that such cost efficiencies are important to you, 
Mr. Chairman, and members of this subcommittee and to the 
constituents and taxpayers that you so ably represent.
    Our global media buying organization buys more media than 
any other communications company in the world. This gives us 
unparalleled negotiating leverage in our dealings with global 
media vendors such as Time Warner and ABC Disney.
    We are also the largest buyer of interactive media in the 
country. This allows us to maximize the efficiency and the 
reach of every taxpayer dollar.
    In addition to negotiating and buying the paid media 
component of the campaign, Ogilvy is also responsible for 
negotiating and implementing the media match. This is pro bono 
time, space, and programs donated by media vendors.
    We've already negotiated $167 million in media match for 
phase three of the national youth anti-drug media campaign, 
which, as you know, began in September 1999. That's $167 
million of free media. Nobody in the advertising industry does 
that for any other advertiser.
    And I want to just point out, there was a question in one 
of the previous panels about commission. Ogilvy earns no 
commission on any of the media buying and planning. Our 
contract prohibits it. Our contract is a cost-plus fixed fee 
contract. And we earn a fixed fee which is equivalent to 1 
percent of the contract. And, to give you a context, typically 
media commissions, when they are paid to advertising agencies 
in this country are between 12 and 15 percent of a contract, 
and we are earning 1 percent. And that's regardless of how much 
media we buy. So even if the media budget increases, our fee 
does not.
    The national youth anti-drug media campaign is without 
precedent. It is truly the gold standard in leveraging private 
sector best practice and the world's leading behavioral 
science. No other client of Ogilvy anywhere in the world goes 
to the lengths that ONDCP does to make sure their campaign is 
science-based, measurable, totally integrated, and continuously 
improved.
    For example, the process for advertising development 
ensures every advertisement is based on facts from behavioral 
science, insights from target audience specialists, feedback 
from our target audience, and the expertise of the best minds 
in the advertising industry through our partnership with the 
Partnership for Drug-Free America.
    Ogilvy is extremely proud of our accomplishments to date 
for the national youth anti-drug media campaign. We are 
constantly searching for opportunities to make this campaign 
more effective. For example, we are deploying leading edge 
econometric modeling to develop optimal media plans, and a new 
tracking study to measure the success of every message against 
its target audience, as it airs.
    In accordance with the goals of the national drug control 
strategy, we will make a difference in reducing drug use in 
this country. We have the resources and we have the know-how, 
and our entire company is committed to the success of this 
unprecedented landmark campaign.
    Before I close, I would just like to make a few comments in 
response to the statement by Ms. Cooper.
    And I wanted to say, Ms. Cooper, I am very sorry for your 
loss. I am even more sorry that the national youth anti-drug 
media campaign wasn't airing when Joe Cooper died, because 
maybe if it had been, this wouldn't have happened.
    Ms. Cooper is totally right--we need to get kids' 
attention. She is totally right--we need the facts about drugs 
and we need to get those facts out to our kids. That's why we 
have an advertising development process that is incredibly 
rigorous.
    Agencies are briefed by the Partnership for Drug-Free 
America with pages and pages of strategy and consumer insights. 
Those agencies present back to the Creative Review Council of 
the Partnership for Drug-Free America. They then have to 
present their work to a panel of behavioral change experts and 
target audience specialists who comment on the advertising and 
make changes. It is then presented to General McCaffrey, and 
then those ads that are seen to be suitable to move forward 
with are tested with a target audience, whether it is kids or 
adults or specific ethnicities, and we look to see whether 
those ads change kids' minds.
    The advertising that Ms. Cooper has described, which we 
call ``negative consequence'' advertising, showing kids the 
consequences of drug use, is a very important message platform 
within our campaign, but it is only one of four platforms that 
we use to talk to kids, because all the behavioral science 
indicates you can't just show them what happens when you do 
drugs. And if we just show them that drugs may result in death, 
these kids--the kids that are primarily the target of this 
campaign are ``tweens,'' they are 11 to 13-year-olds. They 
think they are invincible. They do not believe they will die if 
they do drugs, so we need other messages, too.
    I will leave for the records this chart here, which shows 
the message platforms and the 360-degree approach that General 
McCaffrey was describing earlier. One of these message 
platforms--it will actually be airing in November of this 
year--is negative consequences. It's exactly the kind of ads 
Ms. Cooper was describing. And there are other platforms on 
here, too.
    So I am so sorry for your loss, and I really hope that 
other kids will be prevented from using drugs by this campaign.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Ms. Seifert follows:]
    [GRAPHIC] [TIFF OMITTED] T6224.063
    
    [GRAPHIC] [TIFF OMITTED] T6224.064
    
    Mr. Mica. We will withhold questions until we've heard from 
all three witnesses.
    The next panelist is Harry Frazier, and he is a senior vice 
president with Fleishman-Hillard from Washington.
    You are recognized, sir.
    Mr. Frazier. Thank you.
    On behalf of Fleishman-Hillard, thank you, Chairman Mica, 
and the subcommittee for this opportunity to discuss our role 
in the national youth anti-drug media campaign.
    We are the campaign's non-advertising or communications 
contractor. That means we manage all program and outreach 
initiatives that fall outside of paid advertising. We began 
work in December 1998, and are 10 months into building a 
landmark integrated communications program of which we are 
extremely proud.
    We aggressively pursued this contract and greatly reduced 
our fee in order to ensure our bid was competitive. We did so 
because we recognized the national importance of the program, 
we believed in the campaign design, and we knew we would be 
effective.
    The Fleishman-Hillard account team continually coordinates 
with advertising and other campaign contractors and partners. 
We share information, identify opportunities, and work together 
to deliver the same messages and same platforms to the same 
audiences.
    I am co-director of our team, with primary responsibilities 
for account management, and Beverly Schwartz, a nationally 
recognized behavioral scientist, is our other co-director.
    Although our contract only represents about 5 percent of 
the campaign's annul budget, it is an essential part of the 
overall communications strategy. Our contract and funding are 
totally separate from yet fully integrated with the advertising 
contract and other media campaign expenditures. Our goal is to 
complement the advertising with strategic communications that 
most effectively influence youth and parents. This is the same 
approach the Nation's top marketers use to promote products, 
services, and ideas. It is also the method behavior change 
experts prefer for public education.
    By reaching beyond advertising to where youth and parents 
live, work, and play, the campaign literally surrounds them 
with anti-drug messages.
    To be clear, Fleishman-Hillard does not do advertising for 
the campaign. We build sustainable programs and partnerships 
that motivate audiences to talk about and act on the campaign 
messages they see and hear through the advertising.
    Our behavior change approach encourages audiences to adopt 
campaign messages into their daily lives and extend them into 
their own communities.
    We also maximize the opportunities generated by the pro 
bono match requirement of the advertising contract. Every 
activity must be on message and on strategy. We strive to 
maximize the Federal Government's investment by developing the 
products, relationships, and advocates that will continue to 
deliver campaign messages well beyond our involvement and well 
after the media campaign's advertising program ends.
    Our areas of work are outlined in ONDCP's testimony and in 
our written testimony; however, to briefly recap, we conduct 
outreach in four primary areas: public information, 
partnerships, entertainment, and interactive.
    First, public information activities use the news media, 
direct outreach, and special events to generate a steady flow 
of campaign messages to youth and adult audiences. In 1999 
alone, we've generated more than 124 million media impressions 
of these messages.
    Second, we've enlisted thousands of partners who make it 
possible for a wide variety of public and private organizations 
to participate in and extend the reach of the campaign. A blast 
e-mail system regularly advises more than 45,000 stakeholders 
of campaign activities, and they, in turn, reach millions of 
their constituents.
    We are having success partnering with national 
organizations such as the YMCA, which serves 18 million people 
and 9 million kids and has incorporated media campaign messages 
into their publications and curriculum and training materials.
    Third, we work with the entertainment industry, both to 
help deliver messages through celebrity involvement and to 
deglamorize drug use through script suggestions.
    Fourth, we take full advantage of the power of the 
Internet, in part by developing and maintaining multiple drug 
prevention websites where millions are visiting to learn and 
interact with others. Our sites link to hundreds of other 
parenting, education, sports, and health sites on the web.
    We are very pleased to see, Chairman Mica, that the 
campaign's teen site, FREEVIBE.COM, is linked to the drug 
prevention area on your own website. We encourage other Members 
of Congress to follow your lead.
    Finally, our activities reach diverse audiences, thanks to 
a team of minority-owned communications and social marketing 
agencies that know exactly how to communicate with African 
American, Hispanic, and Asian audiences.
    Our ongoing relationship with ONDCP involves a greater 
level of technical and finance review, approvals, and reporting 
than any other Fleishman-Hillard client. We individually detail 
and budget our programs for approval prior to execution and 
have daily interaction with ONDCP staff, who review our 
projects in progress and participate in our internal and 
external meetings and activities.
    In addition, we submit weekly and monthly written reports 
and conduct regular activity briefings for Director McCaffrey 
and his staff. These briefings include comprehensive progress 
reviews, program updates, reports on initiatives, and results, 
budget, and expenditure briefings.
    In closing, we believe in working for a drug-free America 
and are committed to this campaign. We are proud of our 
accomplishments and are happy to answer your questions or 
further elaborate on our activities.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Frazier follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.065
    
    [GRAPHIC] [TIFF OMITTED] T6224.066
    
    [GRAPHIC] [TIFF OMITTED] T6224.067
    
    [GRAPHIC] [TIFF OMITTED] T6224.068
    
    [GRAPHIC] [TIFF OMITTED] T6224.069
    
    [GRAPHIC] [TIFF OMITTED] T6224.070
    
    Mr. Mica. I'd thank all of our witnesses for their 
testimony.
    First of all, Ms. Cooper, this is a pretty big program 
we've undertaken at the Federal level, $1 billion. It's not 
quite in the expenditure category of your local effort. But 
this is public money, it is a public trust, and we want to make 
certain that it is spent effectively.
    You've seen some of the ads that have been played to date. 
You've heard Ms. Seifert talk about your particular situation. 
What is your candid evaluation of what we've done to date? 
Would it have made any difference, in your estimation, in your 
son's case? Just tell us what you think about the campaign. And 
we spent several hundreds of millions of dollars so far, plus 
the donated component, probably a half a billion to date. Can 
you give us your candid assessment?
    Ms. Cooper. Those of us that have already lost our kids and 
the families that I deal with whose kids are in rehab now or 
still on the streets firmly believe that they are just not 
strong enough. These ads, the information has to be pretty much 
in your face and reality, and we just feel very strongly that 
the ads to date are not strong enough to get to the kids.
    Mr. Mica. Ms. Seifert said that part of their message, 
rightly, is geared at parents. And General McCaffrey also said 
they targeted Orlando. You must have seen some of those. You 
are a parent. What do you think of that effort in your setting 
with our problem with heroin there?
    Ms. Cooper. Again, not strong enough. I think the parents 
definitely need to be educated.
    Mr. Mica. Have you seen those ads geared at parents in 
Orlando?
    Ms. Cooper. Not these particular ones, but I have seen and 
I did like a couple of them, one being a little girl being 
asked by somebody, ``What has your mother told you about 
playing with matches? What has your mother told you about 
strangers? What has your mother told you about drugs?'' And 
each time the little girl responded appropriately about matches 
and strangers, and when asked----
    Mr. Mica. What about, again, directed toward parents and 
making a difference yet? If you had seen those ads that you 
have seen now, do you think they could have helped you with 
your son's situation?
    Ms. Cooper. Well, not really. I did educate my kids about 
drugs, but I didn't educate them properly because I didn't know 
about the drugs today. I didn't know what was going on in the 
clubs downtown.
    I think you may have seen the video on the undercover video 
of the raves downtown. I was blown away by this.
    If I had seen that before Joe died, there's no way that boy 
would have been going to raves downtown. I don't think the 
parents have any idea.
    I know we have parents in our group that actually paid, 
gave them the money to go to some of these zen festivals and 
the raves, not having any clue what was going on at them.
    I think parents need to be educated about the drugs today 
and about what is going on, what their kids are actually 
exposed to, not just, ``Hey, you need to talk to them.''
    Yes, they do need to talk to them, but they need to get 
educated what is out there, what are their kids exposed to.
    Mr. Mica. Mr. Frazier or Ms. Seifert, before today have 
either of you talked to a mother who has lost a child to heroin 
overdose?
    Ms. Seifert. Yes.
    Mr. Mica. You have?
    Mr. Frazier. Yes, we have. Interestingly enough, Ms. 
Cooper's--when I was listening to her testimony, it is the 
exact type of thing that we are doing.
    A lot of people hear the term ``PR'' and think of something 
corporate or political, but what she is doing is classic, 
traditional PR. She's getting out to a community. She's trying 
to inform people. She's trying to give them real-life examples 
to make messages real for them and give them direction and some 
incentive to do something.
    Mr. Mica. One other question about your experiences. Did 
you know the individual who lost a child or a relative to drug 
overdose?
    Ms. Seifert. Yes.
    Mr. Mica. You did?
    Mr. Frazier. Yes.
    Mr. Mica. Well, what I think is absolutely startling is we 
have three people, one who has lost a son in this and we have 
two of our witnesses who are participating in this, and each of 
you know and have talked to families that have losses. This is 
an incredibly widespread problem.
    The problem we have in central Florida is we have been 
losing almost one or two a week to heroin. We have had this 
campaign, and on the floor last week I cited several heroin 
overdoses, drug overdose deaths just in that past weekend, and 
it is not abating, even with the ad campaign. That's the scary 
part of it.
    Let me, if I may, ask our two contractors a couple of 
questions.
    First of all, Ogilvy & Mather have the largest share of 
this contract. It will be $684 million, I think, total, with a 
fixed fee of about $8 million over that period of the 
expenditure, and you said----
    Ms. Seifert. Actually, Chairman Mica, it is an annual 
contract.
    Mr. Mica. Yes.
    Ms. Seifert. So the contract is currently valued at $152 
million, of which about $1.5 is the fixed fee, so it is almost 
exactly 1 percent.
    Mr. Mica. And you said it is cost plus the fixed fee. Is 
the cost only the cost for airing, or are there other costs 
like production and subtracted----
    Ms. Seifert. The contract is for $152 million. The great 
majority of that expenditure is for the paid media, but out of 
our $152 million contract we also pay $3 million for production 
of the advertising.
    But, as General McCaffrey explained----
    Mr. Mica. Are there any----
    Ms. Seifert [continuing]. It is not labor.
    Mr. Mica. Right. Are there any other subcontracts or--what 
I am trying to do is look at the big picture, how much money is 
spent. We commend you for offering your services in this 
fashion with a fixed fee, but we also want to find out exactly 
how the dollars are expended.
    So there's $3 million, you said, in production, 
approximately?
    Ms. Seifert. Yes.
    Mr. Mica. And are there any subcontracts let on your 
contract?
    Ms. Seifert. Yes. There are five subcontracts which--these 
are all mandated by the RFP that we were awarded by the 
contract. We have to have a----
    Mr. Mica. And do we have copies of all of those 
subcontracts? Could you provide us with copies of the 
subcontracts?
    Ms. Seifert. I can certainly provide copies of all the 
contracts to ONDCP so that--because we are contractually 
obligated to ONDCP, and I think they will forward them to you.
    Mr. Mica. Right. And we will ask for copies of them.
    Again, it is a little bit different client. It's the people 
of the United States. Our job is merely, when we appropriate a 
program of this magnitude--and it wasn't a rush fashion, but it 
was in an expedited fashion. We now want to see how the funds 
are expended. So if you could--and we will also ask the general 
for that.
    And that's one of the problems we've had to date is just 
trying to get that information.
    There are no other fees or commissions or costs other than 
those subcontracts and the production amount; is that correct?
    Ms. Seifert. Anything that is not media would be production 
of the advertising, which is not labor. As I said before----
    Mr. Mica. Right.
    Ms. Seifert [continuing]. It is purely the actual third 
party production cost.
    The cost of subcontractors is one subcontractor for each of 
the ethnic audiences that we need to reach with the campaign, 
so there would be one for African American audiences, for 
Asian, for Native Americans, and so forth.
    Mr. Mica. What I am trying to get to really is I want to 
get to the rock bottom--and maybe you could provide the 
subcommittee with this--of how many dollars actually go on 
television or radio. You are doing television. Are you doing 
radio?
    Ms. Seifert. Every single medium, because this is a 
surround campaign.
    Mr. Mica. All right. What we want to find out is how many 
hard dollars are going into that and what other expenses there 
are. So if we have $195 million and we take $127, we have $40 
over here next to you, or whatever is expended. I don't want to 
be exact here. But then we take out so much for production and 
so much for other expenses. We are trying to find out the 
bottom line of dollars going into that, so if you could 
provide----
    Ms. Seifert. We can certainly provide that.
    Mr. Mica. We would appreciate that.
    Mr. Frazier, one of our concerns was, in talking with the 
ONDCP subcontractor, all of these contracts have reporting 
requirements. One of the major reports was the September 4th 
evaluation report, which we weren't able to get up until just 
before this hearing.
    Did Fleishman-Hillard deliver a written evaluation report 
to ONDCP on or before September 4th, as required?
    Mr. Frazier. Yes, sir, we have delivered dozens of 
reports----
    Mr. Mica. No.
    Mr. Frazier [continuing]. Including----
    Mr. Mica. Did you provide an evaluation report on or before 
September 4th, as required under the terms of the RFP? Do you 
know?
    Mr. Frazier. Yes, sir. We did that in two ways. We did a 
full review of our activities in June to date, and we did 
another one in September. That one was, indeed, a week after 
the September 4th date.
    Mr. Mica. OK.
    Mr. Frazier. It was a comprehensive review.
    Mr. Mica. It was delivered. But it was delivered 
afterwards. OK.
    And one of the problems we've had--and we'd like to get 
copies of it, too--are, again, some of the subcontracts here. 
How many subcontracts do you have?
    Mr. Frazier. We have six subcontractors.
    Mr. Mica. Do we have copies of all of those now?
    Mr. Frazier. I don't know what you do or don't have, but we 
are happy for you to have them if ONDCP----
    Mr. Mica. I am seeing your head go in one direction, my 
staff going in another direction, and people in the audience 
going in two directions.
    Do we have copies of all of those six subcontracts? My 
staff says no, we do not.
    Could you provide us, through ONDCP, those six contracts?
    Mr. Frazier. Yes, sir. And let me just state----
    Mr. Mica. The reason, we have parts of the information. 
And, again, we are not trying to be hard guys, but you have 
categories of expenditures. For example, in a request--and I 
cited this to the drug czar, Mr. McCaffrey--we asked Richard 
Pleffner, who is the ONDCP contracting officer, for an 
explanation of a subcontract that went to Rogers and 
Associates, who went and, in turn, subcontracted to Media 
Scope. Media Scope submitted vouchers for entertainment in 
January for $27,000, approximately, for entertainment, in 
February for $29,000, approximately, and March for 
entertainment--I got two in March for entertainment for 
$33,000-plus. I've got, in May 1999, another $33,000.
    What we are trying to find out is if, you know, was this a 
party, was this--it must have been a hell of a bash. But maybe 
it wasn't. Maybe, in fact, it was a very legitimate 
expenditure. But our job is to conduct some oversight.
    And the problem we have is that your subcontractor, Rogers 
and Associates, has, in turn, subcontracted to Media Scope, and 
these things get further away from us. And these people may 
have done an incredible job that should be announced to the 
public. On the other hand, when we have these entertainment 
expenditures just in this short period for $156,000, we want an 
explanation.
    Mr. Frazier. Yes, sir. I am happy to address. I know----
    Mr. Mica. That's a specific request, so----
    Mr. Frazier. Yes, sir. We are happy to fulfill that in 
writing.
    Mr. Mica. You don't even have to submit that one to ONDCP. 
You can tell us directly. And we are leaving the record open 
for 30 days.
    But you see our dilemma in this.
    Let me ask you another question. You have offered----
    Mr. Frazier. Do you mind if I just respond to that real 
quick?
    Mr. Mica. Go ahead.
    Mr. Frazier. To be clear--and I think this is kind of 
symptomatic of you perhaps not having all the information you 
need to understand what we do. Very simply, that was 
entertainment industry outreach they are doing. They are 
holding creative briefings for people like the Writers Guild. 
They held a workshop for children's television writers that was 
convened at the Disney Studios at no cost to the government. 
They are doing entertainment industry outreach, and perhaps it 
wasn't clear in the documentation that you saw, but that's what 
that is for.
    Mr. Mica. Again, we'd like to get this.
    And let me say that you, in particular--I haven't dealt 
with Ms. Seifert. We will get to know her better as this 
progresses. But you and your firm have been most forthcoming 
and open, and we appreciate that.
    Now, let me ask you this. One of the problems we had is 
getting the information you submitted to ONDCP, and you say you 
have provided all of that information. Has ONDCP directed you 
not to provide us with any information?
    Mr. Frazier. Not specifically, sir. In this process--and 
we've never been through a formal review process like this with 
a congressional committee--it was our understanding that 
contractually the way the process works is that you have to 
request those documents from ONDCP. They did not tell us not to 
give anything directly to you.
    I was looking for clarification on what the exact rules 
were in that case, but let me state unequivocally we are happy 
for this committee to see anything that we have done and any of 
our records. We would prefer and request that any proprietary 
information about the salaries of our employees and that type 
of thing that obviously would pose competitive challenges for 
us not become public, but if your staff would like to see them 
we are happy to open our books behind closed doors.
    Mr. Mica. We just would like explanations. I've got another 
example: entertainment, March 31, 1999, celebrity involvement, 
$5,682. It may be a legitimate expense, but what we want is 
some detail on how----
    Mr. Frazier. We are happy to provide that.
    Mr. Mica [continuing]. These funds were expended.
    Now, you tell me there are six contracts.
    Mr. Frazier. Subcontracts. yes, sir.
    Mr. Mica. Subcontracts. Do you have any idea how many 
subcontracts there are to the subcontracts?
    Mr. Frazier. Only one that we are aware of.
    Mr. Mica. The Media Scope one?
    Mr. Frazier. That's the Media Scope one.
    Mr. Mica. All right. And we'd also, Ms. Seifert, like to 
know about any subcontracting that is done through any of your 
contracts.
    Ms. Seifert. There are none, sir.
    Mr. Mica. There are none? OK. All right. Thank you.
    There are detailed reporting requirements in these RFPs. 
Again, other than the September 4th report, the evaluation that 
was due then, do you know of any other reports that have not 
been submitted on time?
    Mr. Frazier. No, sir.
    Mr. Mica. OK. And, again, this is a little bit different 
situation in the private sector, but we do have detailed 
reporting that is required. Do you find that overly cumbersome, 
or you are able to comply with that?
    Mr. Frazier. Well, as I referenced before, the level of 
reporting in this particular contract is more extensive than 
anything we've ever experienced as an agency.
    We do, by the course of our business, keep track of our 
time for every hour, every minute that our staff works, and I 
personally go through those records at the end of every month, 
before we send an invoice, and look at every single hour that 
our 30-plus people have spent on this at Fleishman-Hillard, and 
we ask our subcontractors to do the same.
    We keep all of that. What's different in this contract is 
the level of detail that we are required to submit to the 
government. We are used to doing activity reports. In this 
case, we do them weekly and monthly, as well as regular 
briefings. Director McCaffrey, himself, has shown an incredible 
interest in this. He has given us a no fail mission, and I 
think I can politely say that he is a demanding client, which I 
think is his responsibility in this case. I've never had a 
client give us more scrutiny. He gets his staff to sit down, 
and when we do things we have to prove to him and his staff 
that they are going to work. We have to outline what the 
activity is, why we are going to do it, how much it is going to 
cost. His staff reviews it and they come back and ask us tough 
questions.
    Sometimes we hope almost always--we have good answers for 
those, and sometimes we've adjusted our activities due to their 
oversight.
    Mr. Mica. All right. Other than General McCaffrey and the 
contracting officer, who are the other individuals you've dealt 
with?
    Mr. Frazier. Alan Levitt is the director of the media 
campaign. I would say that people on our staff, between Bev and 
I, we talk to him--including e-mails and phone calls probably 
in double digits each day. We interface with him and his staff 
everyday on some level or another. I think I'd probably be 
accurate in saying there is not a day since we won this 
contract that we haven't spoken with him or his staff.
    We actually function as a team with them and we work 
together with them every day, as I referenced before.
    Mr. Mica. And yours is the non-media----
    Mr. Frazier. Non-advertising, yes.
    Mr. Mica. And that would cover all of those aspects.
    And who do you deal with as far as oversight? General 
McCaffrey and then a contracting officer, Ms. Seifert?
    Ms. Seifert. Yes. It would be----
    Mr. Mica. Could you tell us just who?
    Ms. Seifert. The key contacts would be General McCaffrey--
and we've met, since we were appointed, which was January 4th 
of this year, we've had 18 meetings with General McCaffrey. 
But, to give you some context, he talked earlier about being 
the CEO of his campaign. There isn't a CEO that Ogilvy & Mather 
works for anywhere in the globe that meets with his advertising 
agency every 2 weeks, and 18 meetings in 2 months is about once 
every 2 weeks, so that's the level of contact we've had with 
General McCaffrey. And that isn't, ``Hello, how are you'' in 
the hallway. That's often 6, 7, 8-hour briefings on what we are 
doing. And he wasn't kidding when he said they go to 11 p.m.
    So it is General McCaffrey. We are dealing on----
    Mr. Mica. Contracting officer?
    Ms. Seifert. The contracting officer, Rick Pleffner.
    Mr. Mica. OK.
    Ms. Seifert. Alan Levitt, the director of the media 
campaign; and Alan's staff, so Joe Bartholomew and Judy 
Costerman. And Janet Chris, the chief of staff; and Poncho 
Kinney, and many others, as needed, depending on the issues. 
Also Don Vereen, the deputy director.
    Mr. Mica. All right. Well, again, we appreciate your coming 
in today. I am sure you never expected this level of scrutiny 
when you got involved in this, but it is important that we make 
this campaign as effective as possible, that we ensure that 
every taxpayer dollar is expended as efficiently and 
economically, that we do review these expenditures.
    I am sure that both of your firms have tried to do an 
exemplary job in this most important national campaign. It is 
the first of its type. But we will continue to monitor these 
activities very closely, because it is not a small-ticket item. 
It is $1 billion of our money and we want it spent right, and 
it is combined with private sector donations.
    Ms. Cooper, thank you so much. You have been incredible, 
again, turning tragedy into a public campaign, a private 
campaign to get the word out not only in central Florida, 
across our State, and the Nation today, and we thank you for 
your efforts, which were just invaluable.
    I don't have any further questions at this time. I am sure 
you are pleased to hear that. But we will be submitting 
additional written questions to our witnesses and the record 
will be open for 30 days.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.071
    
    [GRAPHIC] [TIFF OMITTED] T6224.072
    
    [GRAPHIC] [TIFF OMITTED] T6224.073
    
    [GRAPHIC] [TIFF OMITTED] T6224.074
    
    [GRAPHIC] [TIFF OMITTED] T6224.075
    
    [GRAPHIC] [TIFF OMITTED] T6224.076
    
    [GRAPHIC] [TIFF OMITTED] T6224.077
    
    [GRAPHIC] [TIFF OMITTED] T6224.078
    
    [GRAPHIC] [TIFF OMITTED] T6224.079
    
    Mr. Mica. With that, I thank you all for being with us.
    We will excuse this panel and I will call our third and 
last panel.
    Our third and last panel today is Doctor Lloyd Johnston, 
who is the program director and university distinguished 
research scientist with the Institute for Social Research at 
the University of Michigan.
    We also have Dr. S. Shyam Sundar, and Dr. Sundar is 
director of Media Effects Research Laboratory with the College 
of Communications at Pennsylvania State University.
    I am pleased that we have both of these distinguished 
panelists with us today.
    As you may have heard, gentlemen, this is an investigations 
and oversight panel of Congress. We do ask that our witnesses 
be sworn. If you would stand, please, and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative.
    Again, we are pleased to have such distinguished panelists 
to give us their perspective on this unprecedented national 
media campaign.
    I will recognize first Dr. Lloyd Johnston, who is with the 
Institute for Social Research at the University of Michigan. 
You are recognized, sir, and welcome.

 STATEMENTS OF LLOYD JOHNSTON, PROGRAM DIRECTOR AND UNIVERSITY 
    DISTINGUISHED RESEARCH SCIENTIST, INSTITUTE FOR SOCIAL 
RESEARCH, UNIVERSITY OF MICHIGAN; AND S. SHYAM SUNDAR, DIRECTOR 
 MEDIA EFFECTS RESEARCH LABORATORY, COLLEGE OF COMMUNICATIONS, 
                 PENNSYLVANIA STATE UNIVERSITY

    Mr. Johnston. Thank you very much, Mr. Chairman, and good 
afternoon. Thank you for the invitation to testify.
    I am going to be speaking from some of the figures that are 
attached to my testimony. I've just handed some to counsel, and 
there are more on that desk.
    Mr. Mica. What we would like to do, if it is OK, Dr. 
Johnston, is, without objection, this information will be made 
part of the record.
    Mr. Johnston. Thank you very much.
    Mr. Mica. So ordered.
    Mr. Johnston. Well, I've been at the University of Michigan 
for a long time, and for 25 years have directed the ongoing 
Monitoring the Future studies of American adolescents and young 
adults, in which we've tracked and tried to explain trends in 
drug use of all kinds, as well as related beliefs and 
attitudes.
    We have now done surveys of every graduating high school 
class since 1975, and in the 1990's we've also done surveys of 
8th and 10th grade students, who go down in age to 13. So today 
we survey about 50,000 young people a year in some 420 
secondary schools.
    In the short time available, I'd like to try to make 
several points, and these are best illustrated in the handouts 
that I've given you, or that are attached to my testimony.
    The first is that we have found that drug use is malleable. 
It can be influenced. It can change quite dramatically over 
time. Indeed, it has over the last 25 or 30 years.
    We sometimes hear that this is a hopeless cause, the drug 
war is lost, and so forth, and that's so much hogwash.
    Second, we have found--and I think this is one of the more 
important findings from our study--that the attitudes and 
beliefs that young people have about these drugs have played a 
major role in influencing the changes that have occurred, both 
the changes for the good and the changes for the worse.
    And if you look at figure 1, for example, it shows that the 
changes in marijuana use are inversely related to changes in 
the perceived risk of using marijuana.
    So, as young people become more concerned about the dangers 
of the drug, they become less likely to use. Or, in the 1990's, 
as they become less concerned, they become more likely to use.
    We see a similar relationship, by the way, with 
disapproval, which in the aggregate reflects peer norms about 
use.
    These two variables have had a lot of explanatory power, 
and sometimes have been leading indicators of change in use.
    I should also mention in figures 1 and 2 that the trend 
lines on perceived availability of these drugs suggest that 
availability has not been a very good explanator of the changes 
that we've seen, and I think that's mostly because it is so 
very difficult to influence availability when, in fact, there 
is a major and highly profitable market constantly drawing 
suppliers in.
    Now, I wanted to go to figure 3, which was referred to in 
testimony given earlier today, and it shows the PDFA estimates 
of amount of resources that the media have contributed pro bono 
over the years. We see there was a big increase in 1990, when 
there was a major effort, and then a gradual decline over the 
1990's. As General McCaffrey said, competition in the media 
industry became more severe. There was less pro bono support.
    And you notice there is some correlation there over time 
between the amount of advertising and the perceived risk that 
young people reported--in this case, 12th grade students.
    Now, to turn to a set of data that we have about ad 
campaigns, specifically. We added these questions in 1987. We 
know, of course, that the ad campaigns are aimed largely at 
affecting these very attitudes and beliefs that were shown to 
be important, and if you look at figure 4 you can see that, 
based on data from 8th, 10th, and 12th grade students, recalled 
exposure to the ads can reach quite high levels. When the media 
weight was heaviest, at the beginning of the 1990's, large 
proportions of these youngsters said that they had at least 
weekly exposure, and a substantial number had daily exposure to 
the ads.
    Note that, as the weight of the ad effort declined in the 
1990's, so did the reported exposure to the ads, helping to 
indicate that these, indeed, are valid measures.
    The point is it is possible to reach high levels of 
exposure, and I should mention that a preliminary look at our 
1999 data, which are not yet ready for release, suggests that 
in the spring of 1999 we saw a sharp increase in reports of 
exposure, consistent with the fact that the new campaign was 
getting underway.
    Finally, in figure 5 I want to show that you can not only 
achieve high rates of exposure, but high rates of impact as 
reported by the youngsters. And here we've asked them to say to 
what extent they think such commercials have made them less 
likely to use drugs, personally.
    You can see that large proportions of them say that they 
feel the commercials have, at least to some degree. In the 
early 1990's, over 80 percent of the 8th graders said that. But 
the proportions who reported such positive impact declined 
during the 1990's, and this, of course, was when the amount of 
media weight was, itself, declining. So, again, this is 
consistent with the notion that you have more impact when you 
have more media coverage.
    I want to conclude by saying that it is very important that 
we institutionalize prevention of drug use for the long term in 
our society, and the media campaign is one way to do that. I 
think the primary other way is through prevention programs in 
the school.
    The reason I say that is that when this country has gotten 
into the most trouble is when we've taken our eye off the ball, 
and the early 1990's I think constituted an example of that.
    Many institutions in society looked elsewhere. Drug use 
fell off the television screen. I think a new generation of 
youngsters came along who simply knew less about the 
consequences of drugs, either because they were exposed to less 
drug use around them or because they heard less through the 
media and through tragedies that were occurring to public 
figures.
    So we, in a sense, got a more naive generation in the early 
1990's because we weren't dealing with the issues directly, and 
the Gulf war I think was probably a precipitating event there, 
which knocked everything off of the television screen in 1991 
other than the war. The drug issue didn't come back for some 
years.
    So I think that it is important that we institutionalize 
these forms of education, socialization, and persuasion and 
keep them, even in times when we've made substantial progress 
in reducing drug use, because at precisely those times the 
seeds of a new epidemic can be sown. It is precisely those 
times, when the youngsters know the least about drugs from 
first-hand observation, that they need to know the most through 
formal learning.
    I also have some comments on Dr. Sundar's study, which he 
is about to present, but I will leave those for questions.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Johnston follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.080
    
    [GRAPHIC] [TIFF OMITTED] T6224.081
    
    [GRAPHIC] [TIFF OMITTED] T6224.082
    
    [GRAPHIC] [TIFF OMITTED] T6224.083
    
    [GRAPHIC] [TIFF OMITTED] T6224.084
    
    [GRAPHIC] [TIFF OMITTED] T6224.085
    
    [GRAPHIC] [TIFF OMITTED] T6224.086
    
    [GRAPHIC] [TIFF OMITTED] T6224.087
    
    [GRAPHIC] [TIFF OMITTED] T6224.088
    
    [GRAPHIC] [TIFF OMITTED] T6224.089
    
    [GRAPHIC] [TIFF OMITTED] T6224.090
    
    [GRAPHIC] [TIFF OMITTED] T6224.091
    
    [GRAPHIC] [TIFF OMITTED] T6224.092
    
    [GRAPHIC] [TIFF OMITTED] T6224.093
    
    [GRAPHIC] [TIFF OMITTED] T6224.094
    
    [GRAPHIC] [TIFF OMITTED] T6224.095
    
    [GRAPHIC] [TIFF OMITTED] T6224.096
    
    [GRAPHIC] [TIFF OMITTED] T6224.097
    
    Mr. Mica. We will now recognize Dr. Shyam Sundar, who is 
with the College of Communications at Pennsylvania State 
University.
    Welcome. You are recognized, sir.
    Dr. Sundar. I thank you for inviting me here this morning, 
this afternoon, to give testimony regarding the potential 
psychological effects of anti-drug messages in the media.
    My comments today will center around the findings of the 
study that was conducted with my Master's student, Carson B. 
Wagner, in spring of 1998. This preceded ONDCP's campaign, but 
we believe our findings have some implications for current and 
future media campaigns, in general.
    Research has shown in the past that anti-drug ads and 
public service announcements [PSAs], as they are called, are 
enormously successful in reaching the intended target 
audiences. Research has also shown that they promote anti-drug 
attitudes among our youth. But it is in the area of behaviors 
that we see a lot of controversy in the literature, especially 
some researchers saying that behaviors do not automatically 
follow from attitudes, and so forth.
    So we decided to look at behavioral indicators in our 
research. In particular, we looked at behavioral intention, or 
what is sometimes called ``conation.''
    The variable that we found most intriguing in our research 
is the variable that is called conative curiosity. We conducted 
a very simple experiment involving 65 high school seniors as 
participants in one of two conditions. Participants in the 
control condition saw an unaltered version of a prime time 
television program, complete with commercial breaks, while 
those in the experimental condition saw the same program but 
with four anti-drug PSAs edited into the commercial breaks.
    Following the program, participants in both conditions 
filled out an identical questionnaire containing, among other 
things, five items that elicited their level of curiosity 
toward illicit drugs, items like it might be interesting to try 
marijuana, using marijuana might be fun, and so forth. We found 
that the participants in the condition where they were exposed 
to PSAs expressed significantly greater curiosity than their 
counterparts in the control condition. But these results should 
be viewed with extreme caution and skepticism; and one of the 
main reasons I am here is because this particular piece of 
research is getting more attention in the media than it perhaps 
deserves, simply because of its counterintuitive results.
    I have to mention a number of caveats that go with studies 
of this sort. It is a study that uses a small sample in a 
controlled setting. And, while these kinds of experiments are 
similar to test tube experiments in chemistry and can 
demonstrate causation between variables, it would be premature 
to generalize their findings to the real world without 
extensive further study.
    My co-investigator, Carson Wagner, replicated this 
experiment in a different State using different participants 
and a different sample of PSAs and found similar results, but, 
really, other researchers with different samples in different 
locations need to replicate the study before we can even begin 
to think of this as a robust effect of anti-drug PSAs.
    So our research really raises more questions than it 
answers, and this is an exploratory piece of research which has 
brought to the fore an unintended consequence of PSAs--namely, 
that of arousing curiosity--and our data are not able to 
specify exactly why.
    We do discuss a number of possibilities in the paper that 
we presented in a peer forum earlier this year, but these are 
all merely speculative at this point. Others have suggested 
that this might be an example of the forbidden fruit effect, 
that is the tendency among adolescents to be drawn toward that 
which is forbidden or taboo. But only future research can 
explore these possibilities.
    So by presenting our findings we are not claiming that 
curiosity is the only outcome of anti-drug PSAs. This just 
happens to be the variable we examined. There could be many 
other variables that indicate positive outcomes, as other 
researchers have shown, and they may have far greater 
beneficial effects on our youth than the potential negative 
consequences of arousing curiosity.
    We are certainly not recommending that national anti-drug 
media campaigns be abandoned, as has been incorrectly implied 
in certain media reports of our study. If anything, we are very 
interested in ensuring that such campaigns achieve the intended 
pro-social effects by minimizing the potential, if any, to have 
unintended negative consequences.
    In conclusion, our research has implications, I think, in 
two broad areas of anti-drug media campaigns, and those would 
be message design and evaluation.
    Since our findings raise the possibility that a mere 
mention of drugs can serve to prime audience members to think 
about drugs when it wasn't there before, an immediate 
suggestion would be to perhaps design PSAs that provide our 
youngsters with examples of alternative activities that are 
healthy and can take the place of drugs in their lives, but 
without mentioning the word ``drugs'' anywhere.
    Another implication might be perhaps a move away from the 
fear appeal kind of ads, the frying pan or the brain-on-drugs 
kind of messages, which are powerful in their attention-getting 
abilities and their recall rates, but which might trigger 
curiosity, because those are the kinds of ads we primarily used 
in our experiments; and we don't know if the curiosity effect 
is specific to that kind of an appeal.
    There are certainly other health communication models, like 
the health belief model and so forth, which can result in 
message designs that are very different from the fear appeal 
design, and they can result in different types of message 
elaboration in the minds of viewers, leading perhaps to more 
desirable behaviors.
    Our study also, I think, has some implications for 
evaluation research. In particular, it demonstrates the need 
for controlled laboratory and field experimentation in order to 
isolate outcome variables, such as curiosity, because the 
larger implication is that it calls for more research on the 
effects of PSAs in particular, not just PSA campaigns in 
general. Of course, there are lots of studies, including the 
one that was presented just before mine, that look at the whole 
campaign, in general, and these are large sample surveys and 
have very useful correlational data to present.
    Small sample experiments, on the other hand, can ensure 
exposure and measure effects in a controlled fashion, but, of 
course, they lack generalizability.
    So both have their pros and cons. Ideally, I would like to 
see a combination of surveys and experiments used to evaluate 
the overall effectiveness of anti-drug media campaigns.
    I thank you again for inviting me to testify here, and I 
really appreciate this opportunity to discuss some of the 
theoretical and methodological issues concerning media effects 
of anti-drug campaign information.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Dr. Sundar follows:]

    [GRAPHIC] [TIFF OMITTED] T6224.098
    
    [GRAPHIC] [TIFF OMITTED] T6224.099
    
    [GRAPHIC] [TIFF OMITTED] T6224.100
    
    [GRAPHIC] [TIFF OMITTED] T6224.101
    
    [GRAPHIC] [TIFF OMITTED] T6224.102
    
    [GRAPHIC] [TIFF OMITTED] T6224.103
    
    [GRAPHIC] [TIFF OMITTED] T6224.104
    
    [GRAPHIC] [TIFF OMITTED] T6224.105
    
    Mr. Mica. I have several questions.
    First of all, Dr. Johnston, I guess you have been--the 
University of Michigan has been conducting this monitoring work 
since--is it 1987?
    Mr. Johnston. Since 1975.
    Mr. Mica. Since 1975?
    Mr. Johnston. Yes.
    Mr. Mica. Oh, yes, 1975 I see on one of these charts. You 
do not have a specific subcontract with ONDCP or with NIDA to 
deal with this current campaign, do you?
    Mr. Johnston. No, not at all. Actually, we, ourselves, 
chose to put in the questions about the media campaign when we 
learned that the partnership effort was being launched in 1987. 
And, as we've done with other historical developments that we 
thought might influence young people's drug use, we wanted to 
see what we could learn about that.
    Frankly, the results came out much more favorably than I 
ever expected, given that I think youngsters probably have a 
bias against admitting that anybody influences them, most 
particularly those who are trying to. And so I thought the 
results were really quite impressive.
    In any case, to answer your question directly, we have no 
contract. The National Institute on Drug Abuse is the sponsor 
of our work.
    Mr. Mica. Right.
    Mr. Johnston. Its a competing, investigator-initiated 
research grant that competes with all the other NIH 
applications that go to NIDA.
    Mr. Mica. I think NIDA has contracted specifically with 
Westat. Are you aware of their work?
    Mr. Johnston. Yes.
    Mr. Mica. Have you seen what they have produced?
    Mr. Johnston. Well, I think they are still in the early 
stages, but I have seen some of the thinking that has gone into 
it, and it seems to me it is being well done.
    Mr. Mica. And it will take some time before we can see what 
they've produced, and also compare it with what you produced.
    Mr. Johnston. Right.
    Mr. Mica. Do you think there's any overlap, or have they 
consulted with you at all in what you----
    Mr. Johnston. I served on their Advisory Committee. I don't 
know if it is an ongoing committee or not, but we met once, in 
any case, and they probably had 15 or 20 people.
    They are going into considerably more detail. This is a 
study which is aimed directly at assessing the impact of the 
media campaign, and also trying to measure some of the other 
cultural influences, partly at my suggestion, actually, such as 
media portrayals in entertainment content that might also be 
important determinants that could be confused with what is 
going on in terms of the ad campaign.
    And they are also looking in much more detail at specific 
ads, recall of specific ads, and so forth.
    Our measurement is really quite limited on this specific 
question, but, of course, we can tie it to a lot of other 
things, as I've indicated.
    Mr. Mica. Your charts and your submissions are most 
interesting, detailing some of the trends. In the first figure 
you show the 12th graders' perceived risk of regular use and 
prevalence of use in the past 30 days--pretty dramatic figures 
from 1992.
    I guess we closed down basically the drug czar's office, 
cut the staff dramatically. We had a Surgeon General who sort 
of sent a, ``Just say maybe,'' marijuana message out and 
slashed a number of the other programs, and we see a dramatic 
increase in use and a decrease in the perception of risk. So 
all of those things sort of collided.
    Mr. Johnston. Yes. And, if I may, between 1991 and 1992--
and these are taken in the spring--there was a decline in 
perceived risk, and that actually preceded the turn around in 
use by a year, so in that case it was a leading indicator of 
things to come.
    It's not too often in social science that we get leading 
indicators like that, and it corresponds pretty well to what I 
was mentioning about the Gulf war, which was in 1991.
    Mr. Mica. I notice you have marijuana here and we have 
cocaine.
    Mr. Johnston. Yes.
    Mr. Mica. Is there also a--do you produce a chart on 
heroin?
    Mr. Johnston. We have charts on virtually all the drugs. I 
just didn't----
    Mr. Mica. I wonder if you could provide us one with heroin.
    Mr. Johnston. Certainly.
    Mr. Mica. I think that that would be--I'd like to have that 
as part of the record.
    Mr. Johnston. Absolutely.
    Mr. Mica. Are you now into methamphetamine, ecstacy, or any 
other drugs?
    Mr. Johnston. Yes. We have data on crystal methamphetamine, 
and I think we have something like 32 classes and subclasses of 
drugs, altogether.
    Mr. Mica. Well, we could get into too many.
    Mr. Johnston. Yes.
    Mr. Mica. But in the major problem categories, if there is 
anything else you could provide us with as far as these charts, 
I think it would be helpful.
    We also heard--I don't want to say some controversial 
testimony, but some testimony from Mr. Sundar that, in 
preventing drug use, his study may indicate that--and I think 
he says we may raise curiosity in there by increased possible 
drug use or abuse.
    What is your assessment of his preliminary study?
    Mr. Johnston. Well, I was glad that he put it as 
preliminary and suggestive. One of the advantages of master's 
dissertations is that they can generate some very interesting 
hypotheses that can lead to some important findings, but they 
often don't have the resources to do a very appropriate design, 
and I think the research design wasn't really up to testing 
these hypotheses.
    I did, however, have some runs done yesterday on a large 
sample and tested one of the two hypotheses, that increased ad 
exposure increases the perception of a number of youngsters in 
the surrounding environment who use drugs.
    That would be an important finding, if true, and I ran that 
correlation in our 1998 eighth grade sample, which is about 
2,500 cases on that particular questionaire form. I then 
replicated it on the 10th grade sample, and in both cases it 
yielded a 0.00 correlation.
    So, when put to a high-powered test, the one hypothesis 
failed. And I would be very cautious about concluding that the 
other hypothesis is true, as well, unless, as you suggest, 
further research supports that.
    The problem with the design was that there were only three 
classrooms of kids. One of them got the treatment and two 
didn't. But we don't know whether that one classroom was 
different to begin with because there was never a pre-measure 
of these variables. It was only an after-the-fact measure. And 
so you have what we call very, very low analytic power in that 
condition, and it is very easy to confuse what was really a 
preselection bias with some kind of an outcome.
    Dr. Sundar. The only thing I would add to that is, in the 
replication, we did a better job of random assignment, which we 
could not do in the initial study. But I agree with you. I 
mean, really, we need to replicate this in very many different 
locations and larger samples for us to even begin to conclude 
about the curiosity effect.
    But this is something for which we haven't come up with an 
alternative explanation, so we put it out there in an 
international conference, which then got picked up by the 
media. So far, nobody has suggested why there might be these 
higher scores on curiosity as a function of watching this.
    Mr. Mica. I have one final question, and we have a vote 
that is pending, so we may have additional questions to submit 
to you, but Congress embarked on this aggressive campaign. We 
also, as you heard, put a number of dos and don'ts in the 
legislative mandate. But one thing that we did--and wisely, I 
think--was to require evaluation. We are spending, I think, 
$40-some million, about $10 million a year for evaluation. That 
is being subcontracted now through NIDA, I believe, most of it, 
and Westat, another subcontract.
    But we set in motion this program, and then an evaluation, 
and then it has now filtered its way down.
    One, do you feel that it is adequate? Two, do you feel--I 
mean, whether you are limited or extensive knowledge, I am not 
sure, of what we are doing. Would you advise Congress that this 
is the way to proceed and we are on target or off base, or 
what? Dr. Johnson, and then Dr. Sundar.
    Mr. Johnston. Well, as I said, I think it is a very well-
designed piece of work and being very thoughtfully done with 
very broad input.
    This is tough stuff because we are trying to look at 
something that is happening in the natural environment when all 
sorts of other things are happening, but I think that the 
people doing the research are aware of that complexity and of 
course, the first step to solving a problem is to be aware of 
it.
    If I had my 'druthers, it would have been nice if the 
survey could have had the first iteration before any national 
campaign at the Federal level was launched, but that's 
hindsight, because now you have the limitation that you are 
already midway and you already have a measurement, so you keep 
going.
    But I think, given the limitations of reality, that a good 
job is being done, and I don't really have any suggestions for 
change.
    Mr. Mica. Dr. Sundar.
    Dr. Sundar. In general, we are--at least my co-author and I 
are very interested in making sure that any type of campaign, 
be it this one or any anti-drug or any other health 
communication campaign, has the desired consequences. And, to 
the extent this media campaign comes up with evaluation 
research or data to indicate that it has the desired 
consequences and not so many of the unintended ones, one of 
which came out in our study quite accidentally, then I would be 
able to make a better statement on that.
    But at this time, as far as the PSAs go, we are seeing much 
better diversity of PSAs. It's not so much fear appeals, as was 
in earlier years. We are seeing different types of target of 
PSAs.
    We have been studying some of the recent crop of ads, and 
they all seem to fall into some of the other models other than 
fear appeals, and we are pleased to see that. But we would be 
very, very interested in seeing what consequences occur as a 
result, and how the research turns out, how the evaluation 
turns out.
    Mr. Mica. One of the other interesting phenomena--and my 
time is about up because we have this vote--is Mr. Cummings, 
maybe you heard him earlier, talked about the increase in use 
of illegal narcotics among minorities--African Americans, and 
Ms. Ros-Lehtinen, the Hispanics, and we've seen that increase.
    You don't have time to respond now, because I am going to 
have to run, but I'd be interested in any of your observations 
about that and how we might approach that and how we could 
monitor that and evaluate success in that area, particularly 
reaching those targeted constituencies.
    I thank both of you for coming before us today. 
Unfortunately, our time has expired for the committee hearing.
    There being no further business to come before this 
subcommittee, this meeting is adjourned.
    Thank you.
    [Whereupon, at 1:49 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6224.106

[GRAPHIC] [TIFF OMITTED] T6224.107

[GRAPHIC] [TIFF OMITTED] T6224.108

[GRAPHIC] [TIFF OMITTED] T6224.109

[GRAPHIC] [TIFF OMITTED] T6224.110

[GRAPHIC] [TIFF OMITTED] T6224.111

[GRAPHIC] [TIFF OMITTED] T6224.112

                                   <all>

</pre></body></html>
